<html>
<title> - SUPPORTING A FACT-BASED APPROACH TO PREVENTING TERRORIST TRAVEL TO THE UNITED STATES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


SUPPORTING A FACT-BASED APPROACH TO PREVENTING TERRORIST TRAVEL TO THE 
                             UNITED STATES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                                AND THE

                    SUBCOMMITTEE ON BORDER SECURITY,
                     FACILITATION, AND OPERATIONS,
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 2, 2019
                               __________

                            Serial No. 116-9
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
       Available via the World Wide Web: http://www.govinfo.gov/
       
       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-398 PDF                WASHINGTON : 2019        
       

                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
              Nicole Tisdale, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Donald Conroy, Director, National Targeting Center--Passenger 
  Operations, Office of Field Operations, U.S. Customs and Border 
  Protection, U.S. Department of State:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    11
Mr. Monte Hawkins, Director, National Vetting Center, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    11
Ms. Rebecca Gambler, Director, Homeland Security & Justice Team, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18

                                Appendix

Questions From Chairman Rose for Donald Conroy...................    47
Question From Chairwoman Rice for Donald Conroy..................    47
Question From Chairman Rose for Monte B. Hawkins.................    47
Question From Chairwoman Rice for Monte B. Hawkins...............    47
Question From Chairman Thompson for Monte B. Hawkins.............    47


 
           
SUPPORTING A FACT-BASED APPROACH TO PREVENTING TERRORIST TRAVEL TO THE 
                             UNITED STATES

                              ----------                              


                         Tuesday, April 2, 2019

             U.S. House of Representatives,
Subcommittee on Intelligence and Counterterrorism, 
                                            and the
        Subcommittee on Border Security, Facilitation, and 
                                                Operations,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in room 310, Cannon House Office Building, Hon. Max Rose 
[Chairman of the Subcommittee on Intelligence and 
Counterterrorism] presiding.
    Present from Subcommittee on Intelligence and 
Counterterrorism: Representatives Max, Jackson Lee, Slotkin, 
Walker, and Green of Tennessee.
    Present from Subcommittee on Border Security, Facilitation, 
and Operations: Representatives Rice, Payne, Correa, Small, 
Green of Texas, Clarke, Higgins, Lesko, Joyce, and Guest.
    Also present: Representatives Thompson and Rogers.
    Mr. Rose. The Subcommittees on Intelligence and 
Counterterrorism, and Border Security, Facilitation, and 
Operations will come to order. Thank you all so much for being 
here. I understand some of our colleagues are en route.
    I want to thank my colleague Chairwoman Rice for convening 
this joint subcommittee hearing today. To Ranking Members 
Walker and Higgins, thank you so much as well.
    We are here today to very simply discuss the threat of 
terrorist travel into the United States and how we can use a 
fact-based approach to prevent terrorists from entering the 
country.
    I want to be just plain and simple clear about this. The 
greatest responsibility of a Government is to keep its citizens 
safe. That principle is always going to be my North Star, all 
of our North Stars.
    But just because we care deeply about keeping America safe 
does not mean that we have the opportunity to not make public 
policy based on fact. Our policy should be grounded in reality, 
based off real data and we need to always go where the actual 
threat is today, not yesterday's threat.
    That is what our brave men and women are doing in uniform, 
whether it is at a local level, NYPD, which I have back home, 
to Federal law enforcement officials each and every day. It is 
also what our U.S. soldiers are doing.
    So we are here today, as I said, to follow the threat as it 
particularly pertains to terrorist travel. This administration 
has introduced a number of policies on immigration and border 
security, to include the Muslim ban. They have done this 
claiming, in part, that these policies are necessary to keep us 
safe from terrorists.
    In December 2015 then-candidate Donald Trump called for ``a 
total and complete shutdown of Muslims entering the United 
States until our country's representatives can figure out what 
is going on''.
    So in part today we are also here to get a status update on 
how things are going as you continue to figure out what is 
going on, as we all do.
    After that came a series of travel bans which were 
challenged in court and then implemented. You all have seen 
that story. But we have truly instituted some significant human 
misery as a result of this.
    I have constituents in my district who are American 
citizens, have American citizen children. They cannot bring 
their family back from Yemen because of the Muslim ban.
    I sincerely want to know whether this is worth it. Whether 
it is worth it to discriminate against millions of people 
around the world simply on the basis of their faith? Or for 
that matter, does a border wall from sea to shining sea 
actually keep us safe from terrorist threats?
    We are here to talk about the facts and only the facts. I 
want to hear about the hard work that our Government officials 
are putting in to actually keep terrorist threats out of our 
country. I want to hear about the threats that they are seeing 
on the ground and how they are responding to them with the 
latest technological tools.
    We want to support the programs that work, the ones that 
are based on real data and real threats. So I look forward to 
having a constructive conversation today with my Democratic and 
Republican colleagues and of course with our witnesses and to 
make sure that we are doing everything possible to prevent 
another terrorist threat, to prevent another terrorist attack.
    As a New Yorker you understand the significance that this 
comes with, for me in particular, you know, we have had three 
terrorist attacks just in the last several years. This is a 
threat that New Yorkers live with on a daily basis, the fear of 
when will the next attack come.
    As a housekeeping note, I do also need to express my 
disappointment that witness testimony was not received from DHS 
48 hours prior to the hearing. It is vital that all of our 
witnesses play by the same rules. I hope that the gentleman and 
the Department as a whole can abide by these standards in the 
future.
    With that, I thank all of our witnesses for joining us this 
morning.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                             April 2, 2019
    We are here today to discuss the threat of terrorist travel into 
the United States, and how we can use a fact-based approach to prevent 
terrorists from entering the country. I want to be clear about this: 
The greatest responsibility of a Government is to keep its citizens 
safe. That principle will always be my North Star as a Member of 
Congress and as the Chairman of the Subcommittee on Intelligence and 
Counterterrorism.
    But just because we care deeply about keeping Americans safe 
doesn't mean that we should make public policy that isn't based on 
fact. Our policies should be grounded in reality and based on real 
data. We need to go where the actual threat is. That's what the brave 
men and women in local law enforcement like NYPD to Federal law 
enforcement officers do every day. That's what the U.S. soldiers I 
served with in Afghanistan do, and continue to do across the world. 
That's why we are here today. We are here to follow the threat. We are 
here to understand the facts underlying the threat of terrorist travel 
into the United States--so that we can keep Americans safe.
    This administration has introduced a number of policies on 
immigration and border security--including the Muslim ban-- claiming 
that these policies are necessary to keep us safe from terrorists. In 
December 2015, then-candidate Donald Trump called for ``a total and 
complete shutdown of Muslims entering the United States until our 
country's representatives can figure out what is going on''. But that's 
not governing based on fact.
    And just 1 week after being inaugurated, President Trump signed the 
first of three travel bans targeting Muslims around the world. 
Predictably, chaos ensued, and these bans have been challenged in 
court. Instead of keeping us safe, translators who risked everything to 
keep U.S. soldiers safe were left behind. Families were torn apart. For 
example, I have constituents in my district, who are American citizens 
and have American citizen children, who can't bring their family back 
from Yemen because of the Muslim ban. I want to know whether it was 
worth it to discriminate against millions of people around the world 
simply on the basis of their faith. Or, for that matter, will a border 
wall from sea to sea actually keep us safe from terrorist threats?
    Today, I'm here to talk about the facts and only the facts. I want 
to hear about the hard work that our Government officials are putting 
in to keep actual threats out of our country. I want to hear from them 
about the threats that they are seeing on the ground, and how they are 
responding to them in real time with the latest technological tools. I 
want to support the programs that work--that are based on real data and 
real threats.
    So, I look forward to have a constructive conversation today, with 
my Democratic and Republican colleagues to ensure we are doing 
everything we can to prevent another terrorist attack--and that we are 
doing that effectively and efficiently.
    As a housekeeping note, I must express my disappointment that 
witness testimony was not received from DHS 48 hours prior to the 
hearing. It is vital that all of our witnesses play by the same rules. 
I hope that the gentlemen, and the Department as a whole, can abide by 
these standards in the future.

    Mr. Rose. I now recognize the Ranking Member of the 
subcommittee, Mr. Walker, for an opening statement.
    Mr. Walker. Thank you Mr. Chairman. I appreciate you 
holding this hearing.
    The security and the facilitation of people and goods 
crossing the U.S. borders is one of the fundamental 
responsibilities of the Government and a core mission set of 
the Department of Homeland Security, especially in the 
aftermath of the September 11 terror attacks.
    Since that time major enhancements have been made to the 
policies, to the technology and information-sharing agreements 
related to border vetting agreements and programs.
    Each time a vulnerability is discovered, such as the 2009 
Christmas Day bomber, the 2011 arrest of two Iraqi refugees in 
Connecticut linked to al-Qaeda and the 2015 San Bernardino 
attack, with each one of these vulnerabilities additional 
improvements have and are continuing to be made.
    This is a clear commitment and sense of urgency across the 
Department of Homeland Security and intelligence agencies to 
ensure our vetting programs are as robust as possible.
    We all know, however, that terroristic criminals 
continually assess U.S. systems for weaknesses. Therefore, we 
must continually evaluate, test, and upgrade vetting programs 
to prevent, detect, and deter travel to the United States.
    I want to applaud the efforts of President Trump to further 
harden the vetting systems through the creation of the National 
Vetting Center and the December 2018 release of the terrorist 
travel strategy. I am looking forward to hearing more from the 
witnesses in just a few minutes on these initiatives.
    The American public demands and deserves secure borders and 
security programs that connect the dots. The bottom line is 
that one terrorist slipping through these lines is 
unacceptable.
    I want to thank the panel for their service and for 
appearing here today.
    I yield back the balance of my time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
    The security and facilitation of people and goods crossing the U.S. 
borders is one of the fundamental responsibilities of the Government 
and a core mission set of the Department of Homeland Security in the 
aftermath of the September 11 terror attacks.
    Since that time, major enhancements have been made to the policies, 
technology, and information-sharing agreements related to border 
vetting programs.
    Each time a vulnerability is discovered--such as the 2009 Christmas 
day bomber, the 2011 arrest of two Iraqi refugees in Kentucky linked to 
al-Qaeda, and 2015 San Bernardino attack--additional improvements are 
made.
    There is a clear commitment and sense of urgency across the 
Department of Homeland Security and intelligence agencies to ensure our 
vetting programs are as robust as possible.
    We all know, however, that terrorists and criminals continually 
assess U.S. systems for weaknesses. Therefore, we must continually 
evaluate, test, and upgrade vetting programs to prevent, detect, and 
deter terror travel to the United States.
    I want to applaud the efforts of President Trump to further harden 
vetting systems through the creation of the National Vetting Center and 
December 2018 release of the Terror Travel Strategy. I am looking 
forward to hearing more from the witnesses on these initiatives.
    The American public demands and deserves secure borders and 
security programs that ``connect the dots.'' The bottom line is that 
one terrorist slipping through is unacceptable. I want to thank the 
panel for their service and for appearing here today.

    Mr. Rose. Thank you, Ranking Member.
    I now recognize my co-chair for this hearing, Miss Rice, 
Chairwoman of the Border Security, Facilitation, and Operation 
Subcommittee, for an opening statement.
    Miss Rice. Thank you, Mr. Chairman.
    Today's hearing's topic is one that I have worked on for 
several years now as a Member of this committee. The 
subcommittee I now Chair has previously examined U.S. visa 
security and passenger prescreening programs which continue to 
be vital in preventing terrorist travel and addressing 
potential threats to the homeland.
    I want to underscore that these programs are an essential 
part of our border security apparatus. Many of the screening 
and vetting protocols that Congress has implemented over the 
past 2 decades stem from lessons learned after the 9/11 terror 
attacks and the attempted bombing attack on Christmas day 2009.
    Most recently, our screening and vetting efforts have 
shifted to address the growing threat posed by foreign fighters 
who joined or supported terrorist groups abroad.
    These cases illustrate that we can no longer associate 
terrorist threats with a single country or region. Rather 
foreign fighters hold citizenships and passports from nearly 
every country on earth, from France, England, and Germany to 
China, Russia, the Philippines, and more.
    A terrorist threat can come from anywhere in the world and 
the only way to effectively combat this threat is by partnering 
with foreign governments, sharing information and implementing 
targeted risk-based methods to detect and identify threats 
before they enter this country.
    However broad Executive Actions, such as the President's 
travel ban, are not the solution. In fact, they are 
counterproductive and make us less safe. They divert resources 
and focus from our research-based targeted efforts and they 
polarize an issue that must be bipartisan.
    Unfortunately, much of this administration's approach to 
border security follows that same hyper-partisan and ham-handed 
approach. Over the past 3 years, policy debates about screening 
and vetting protocols have been almost entirely centered on our 
southern land border.
    While the U.S.-Mexico border is a critical and relevant 
part of this discussion, we must also recognize that border 
security is a much broader and more nuanced topic than what the 
current debate has allowed for.
    Today's hearing is an opportunity for us to discuss these 
nuances and gain a deeper understanding of how we can make 
smart, targeted investments in our border security protocols.
    For example, the U.S. Customs and Border Protection Agency 
is woefully understaffed. CBP officers are our eyes and ears on 
the ground. They are our first line of defense when it comes to 
preventing terrorist travel. For the past 2 years, the Trump 
administration has not taken any substantive steps to address 
the agency's startling number of vacancies.
    Additionally, law enforcement agencies at every level 
should be able to make use of new technologies and screening 
methods to more effectively track and identify potential 
threats before they reach our border.
    This means expanding our counterterrorism work to new 
fronts including social media and other forms of on-line 
communications that could help identify foreign fighters and 
stem terrorist recruitment. We need to be able to do all of 
this from staffing up CBP to enhancing screening protocols 
without unnecessarily burdening lawful travel or infringing 
upon an individual's right to privacy.
    I look forward to hearing from our witnesses today about 
how we can better deploy targeted, fact-based vetting methods 
to keep our homeland safe. I thank our witnesses for joining us 
this morning to have this discussion.
    I also thank Chairman Rose for agreeing to pursue this 
topic jointly today. With that, I yield back.
    [The statement of Chairwoman Rice follows:]
                Statement of Chairwoman Kathleen M. Rice
                             April 2, 2019
    Today's hearing topic is one that I have worked on for several 
years now as a Member of this committee. The subcommittee I now chair 
has previously examined U.S. visa security and passenger prescreening 
programs, which continue to be vital in preventing terrorist travel and 
addressing potential threats to our homeland. I want to underscore that 
these programs are an essential part of our border security apparatus. 
Many of the screening and vetting protocols that Congress has 
implemented over the past 2 decades stem from lessons learned after the 
9/11 terror attacks and the attempted bombing attack on Christmas Day, 
2009.
    Most recently, our screening and vetting efforts have shifted to 
address the growing threat posed by foreign fighters, who joined or 
supported terrorist groups abroad. These cases illustrate that we can 
no longer associate terrorist threats with a single country or region. 
Rather, foreign fighters hold citizenships and passports from nearly 
every country on earth, from France, England, and Germany, to China, 
Russia, the Philippines and more.
    A terrorist threat can come from anywhere in the world, and the 
only way to effectively combat this threat is by partnering with 
foreign governments, sharing information, and implementing targeted, 
risk-based methods to detect and identify threats before they enter 
this country. However, broad executive actions, such as the President's 
travel ban, are not the solution. In fact, they are counterproductive 
and make us less safe. They divert resources and focus from our 
research-based, targeted efforts and they polarized an issue that MUST 
be bipartisan. Unfortunately, much of this administration's approach to 
border security follows that same, hyper-partisan and ham-handed 
approach. Over the past 3 years, policy debates about screening and 
vetting protocols have been almost entirely centered on our southern 
land border. And while the U.S.-Mexico border is a critical and 
relevant part of this discussion, we must also recognize that border 
security is a much broader and more nuanced topic than what the current 
debate has allowed for.
    Today's hearing is an opportunity for us to discuss those nuances 
and gain a deeper understanding of how we can make smart, targeted 
investments in our border security protocols. For example, the U.S. 
Customs and Border Protection agency is woefully understaffed. CBP 
officers are our eyes and ears on the ground. They are our first line 
of defense when it comes to preventing terrorist travel, and for 2 
years the Trump administration has not taken any substantive steps to 
address the agency's startling number of vacancies.
    Additionally, law enforcement agencies at every level should be 
able to make use of new technologies and screening methods to more 
effectively track and identify potential threats before they reach our 
border. This means expanding our counterterrorism work to new fronts, 
including social media and other forms of on-line communications that 
could help identify foreign fighters and stem terrorist recruitment. 
And we need to be able to do all of this--from staffing up CBP to 
enhancing screening protocols without unnecessarily burdening lawful 
travel or infringing upon an individual's right to privacy. I look 
forward to hearing from our witnesses today about how we can better 
deploy targeted, fact-based vetting methods to keep our homeland safe.
    I thank our witnesses for joining us this morning to have this 
discussion, and I also thank Chairman Rose for agreeing to pursue this 
topic jointly today.

    Mr. Rose. Thank you, Chairwoman.
    I now recognize the Ranking Member of the Subcommittee on 
Border Security, Facilitation, and Operations, Mr. Higgins, for 
an opening statement.
    Mr. Higgins. Thank you, Mr. Chairman and Madam Chairwoman.
    In the years following the 9/11 attacks, the U.S. 
Government went to great lengths to identify gaps in our 
vetting systems and in how our agencies share intelligence.
    The Department of Homeland Security was created to ensure 
that the American people are protected from a range of threats, 
including those who seek entry into our Nation to conduct acts 
of terror, which will be our focus today.
    Currently, individuals attempting to enter our country are 
vetted against multiple databases, including the Terrorist 
Watch List, the State Department Consular Lookout and Support 
System, and the FBI National Crime Information Center.
    Yet there are multiple agencies that serve as a primary 
repository of these vetting databases and processes. Our Nation 
cannot afford to let one person fall through the cracks through 
a joint information-sharing gap.
    I support the Trump administration's creation of the 
National Vetting Center to consolidate all U.S. Government 
screening and vetting operations under one roof led by DHS, 
senior Department of State and Justice officials and members of 
the intelligence community.
    The NVC will enable 24/7 recurrent vetting of visas and 
travel documents to help push out our borders and prevent known 
and suspected terrorists from reaching U.S. soil. Centralizing 
the vetting process is a good step, but we also need to ensure 
that our vetting accounts for technological innovation and 
emerging threats.
    I am specifically interested in the use of biometrics, such 
as facial recognition software, fingerprint collection, as well 
as social media vetting. Biometric entry and exit pilots have 
already caught people using fraudulent documents at some of our 
Nation's international airports. We must expand this 9/11 
Commission recommendation to all international airports and 
other ports of entry as soon as possible.
    Social media vetting provides the Department with another 
tool to make sure that those seeking to travel to the United 
States were not publicly stating that they wish to do us harm.
    We also cannot ignore the high numbers of illegal entry 
attempts to our country and visa overstays. When people can 
enter or remain in our country illegally we have a security gap 
that known or suspected terrorists can exploit.
    I am very concerned about the catch-and-release situation 
that is occurring at our Southwest Border right now and the 
National security risk associated with it.
    We must ensure that our homeland security components are 
fully funded to address changing dynamics at our border and 
ports of entry.
    Today I would like to hear from our witnesses about the 
vetting we are doing to prevent terrorist travel to the 
homeland, methods terrorists are using to attempt entry into 
our country, threats posed by lack of operational control of 
our borders, any changes in the terrorist travel threat dynamic 
and how biometrics are being used to update our vetting 
capability.
    I would like to thank the witnesses before us today for 
your service. I look forward to hearing your testimony.
    I yield my balance of my time.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
    In the years following the horrific 9/11 attacks, the United States 
Government went to great lengths to identify gaps in our vetting 
systems and in how our agencies share intelligence. The Department of 
Homeland Security was created to ensure that the American people are 
protected from a range of threats including those who seek entry into 
our Nation to conduct acts of terror, which will be our focus today.
    Currently, individuals attempting to enter our country are vetted 
against multiple databases, including the terrorist watch list, the 
State Department Consular Lookout and Support System, and the FBI 
National Crime Information Center. Yet there are multiple agencies that 
serve as the primary repository for these vetting databases and 
processes. Our Nation cannot afford to let one person fall through the 
cracks due to an information-sharing gap.
    I support the Trump administration's creation of the National 
Vetting Center to consolidate all U.S. Government screening and vetting 
operations under one roof, led by DHS, senior Department of State and 
Justice officials, and members of the intelligence community.
    The NVC will enable 24/7 recurrent vetting of visas and travel 
documents to help push out our borders and prevent known or suspected 
terrorists from reaching U.S. soil. Centralizing the vetting process is 
a good step, but we also need to ensure that our vetting accounts for 
technological innovation and emerging threats.
    I'm specifically interested in the use of biometrics such as facial 
recognition software and fingerprint collection, as well as social 
media vetting. Biometric entry/exit pilots have already caught people 
using fraudulent documents at some of our Nation's international 
airports. We must expand this 9/11 commission recommendation to all 
international airports and other ports of entry as soon as possible.
    Social media vetting provides the Department with another tool to 
make sure that those seeking to travel to the United States are not 
publicly stating that they wish to do us harm. We also cannot ignore 
the high numbers of illegal entry attempts to our country and visa 
overstays. When people can enter or remain in our country illegally, we 
have a security gap that known or suspected terrorists can exploit.
    I am very concerned about the ``catch and release'' situation 
that's occurring at our Southwest Border right now, and the National 
security risks associated with it. We must ensure that our Homeland 
Security components are fully funded to address changing dynamics at 
our border and ports of entry.
    Today I would like to hear from our witnesses about the vetting we 
are doing to prevent terrorist travel to the homeland, methods 
terrorists are using to attempt entry into our country, threats posed 
by lack of operational control of our borders, any changes in the 
terrorist travel threat dynamic, and how biometrics are being used to 
update our vetting capability.
    I want to thank the witnesses before us today for their service and 
I look forward to hearing your testimony.

    Mr. Rose. Thank you, Ranking Member.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             april 2, 2019
    I thank the Chairman, and I echo the comments of my Democratic 
colleagues in restating the importance of this hearing today. The 
committee has a long history of overseeing and implementing key 
measures to address the threat posed by terrorist travel. After the 9/
11 attacks and again after the attempted bombing of Flight 253 on 
Christmas day 2009, Congress overhauled and strengthened the screening 
and vetting processes for foreign travelers. As a result, our 
Government's ability to screen and vet foreign visitors has evolved and 
grown considerably over the last 2 decades.
    Today, the Department of Homeland Security and the Department of 
State operate multiple programs designed to make sure that foreign 
nationals entering the United States do not pose a threat to the 
homeland. We can always improve upon the work we do to address this 
threat, and our witnesses today can testify to the various systems in 
place to continually review and ensure we can stay ahead of this threat 
as it evolves.
    However, during the Trump administration, Executive Orders have 
modified the ways certain visa applicants are screened and vetted, some 
of the modifications seem to be rooted in Islamophobia in nature. The 
implementation of the Trump Executive Orders deviates greatly from the 
individual, risk-based targeting methods we have had in place for 
years. Ignoring best practices that had been honed and improved upon 
for years is not an effective way to enhancing our security.
    We must continue to focus efforts on improving assessments of 
individual travelers since terrorist threats can come from anywhere. 
The new National Vetting Center is another measure put in place by the 
current administration, and we have yet to see whether this approach 
will truly enhance our current screening processes. It is my hope that 
this morning's hearing will shed light on how the National Targeting 
Center and through the National Vetting Center are addressing long-
standing, serious threats and whether they have been informed by 
lessons learned over the years. Vetting and screening analysis must be 
based in fact; it must be based on the best data we have available to 
our Government. How Federal agencies conduct this screening should not 
be driven by fear or politics.
    Using those facts, the committee will continue to support and 
strengthen programs that are effective and have proven valuable--not 
only to keep our Nation safe, but also to facilitate the robust 
international trade and travel that are cornerstones of our economy.
    I look forward to hearing from the witnesses today, and I thank the 
Chairman and the Chairwoman for convening this joint hearing on such an 
important subject.

    Mr. Rose. Additionally, I ask unanimous consent that the 
Members of the full committee shall be permitted to sit and 
question the witnesses as appropriate. Without objection, so 
ordered.
    I welcome our panel of witnesses. Our first witness is Mr. 
Donald Conroy who serves as the director of the National 
Targeting Center for Passenger Operations within U.S. Customs 
and Border Protection, or CBP. Prior to serving in this 
capacity Mr. Conroy was area port director for the Detroit 
Airport and the Detroit Field Office of CBP for 2 years.
    Next we are joined by Mr. Monte Hawkins, who currently 
serves as the Department of Homeland Security's first director 
of the National Vetting Center. Prior to this position, Mr. 
Hawkins served as the senior director for the Border and 
Transportation Security Directorate in the National Security 
Council.
    Finally, we have Ms. Rebecca Gambler, who serves as the 
director of the Homeland Security and Justice Team within the 
Government Accountability Office. Ms. Gambler joined GAO in 
2002 and currently leads the agency's work on border security, 
immigration, and election issues.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Conroy. Again, thank you all 
so much for taking the time and for your service to this 
country.

   STATEMENT OF DONALD CONROY, DIRECTOR, NATIONAL TARGETING 
CENTER--PASSENGER OPERATIONS, OFFICE OF FIELD OPERATIONS, U.S. 
    CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF STATE

    Mr. Conroy. Chairman Rice, Chairman Rose, Ranking Member 
Higgins, and Ranking Member Walker and distinguished 
subcommittee Members, thank you for the opportunity to testify 
before you today.
    CBP is the unified border agency of the United States and 
as such we are responsible for securing our Nation's border 
while facilitating a flow of legitimate travel and trade. Every 
day we welcome more than a million travelers to the United 
States. Over the course of fiscal year 2018 CBP inspected more 
than 413 million travelers at 328 ports of entry.
    The unfortunate reality of this threat environment means 
that terrorists and others who present a significant danger to 
the public are among those seeking to enter the United States. 
In order to stop them, CBP works in close partnership with 
Federal law enforcement, intelligence community, State and 
local law enforcement, the private sector, and our foreign 
counterparts.
    CBP is and its partners work to address risk at each stage 
of the travel process: At the time of application to travel; 
the ticket purchase or reservation; check-in at a foreign 
airport; and arrival at the United States.
    By receiving advanced information and employing 
sophisticated targeting systems to detect risk and acting 
through a global network, we can address risk or prevent 
movement of identified threats to the United States at the 
earliest point in their travel.
    As the director of the National Targeting Center's 
Passenger Division I would like to discuss our role in 
preventing terrorist travel. The National Targeting Center, or 
NTC, is a 24/7 operation that makes extensive use of 
intelligence materials and law enforcement data. This allows 
the analysts and targeting officers to make informed decisions 
at all points of the travel continuum.
    Starting with the earliest indications of potential travel, 
such as the Electronic System for Travel Authorizations, 
applications, visa applications and passenger manifests and 
continuing through the inspections and arrival process, we are 
continually analyzing information and using CBP's Automated 
Targeting System, or ATS.
    I would like to discuss automation and targeting. 
Technology is an integral part of CBP's efforts to prevent 
terrorist travel. ATS is a decision support tool for CBP 
officers that compares information and travelers arriving in, 
transiting through, and exiting the country against law 
enforcement and intelligence information.
    This allows us to identify individuals who require 
additional scrutiny for issues related to National security, 
law enforcement, customs, immigration, agriculture, and other 
reasons.
    This information is also matched against targeting rules 
developed by subject-matter experts. CBP identifies unknown 
high-risk individuals by comparing their information against a 
set of targeting rules based on intelligence, law enforcement, 
and other information.
    The NTC analyzes information about every traveler, 
including U.S. citizens, before departure to identify possible 
matches to the Government's consolidated terrorist watch list, 
Interpol's lost and stolen passport information, criminal 
activity, fraud, and mala fide travelers.
    Through direct networks with commercial airlines and 
connections with the CBP officers overseas as part of the 
Immigration Advisory Program, NTC officials are able to issue 
no-board recommendations to airlines to keep high-risk 
passengers from traveling to the United States who would 
otherwise likely be found inadmissible at entry.
    In fiscal year 2018, the NTC and Immigration Advisory 
Program and the regional carrier liaison groups led CBP efforts 
to prevent the boarding of 16,900 high-risk travelers destined 
for the United States, a 6 percent increase from fiscal year 
2017.
    The NTC vetting process for international passengers 
continues while the flight is en route to the United States in 
the event new information is discovered. This allows us to 
identify travelers who, although they may not be National 
security risk, may need to be further reviewed or referred for 
more thorough inspection at the first port of entry upon 
arrival into the United States.
    In addition, expanding the Nation's zone of security beyond 
the United States improving operational inefficiencies, the 
National Targeting Center's pre-departure program results in 
significant monetary savings by preventing inadmissible 
passengers from boarding flights to the United States where 
they would most likely be processed by CBP for refusal or 
removal.
    We eliminate additional detention and processing costs for 
the Government and additional repatriation expenses for 
commercial carriers.
    The NTC works constantly to strengthen existing 
relationships and build new partnerships within DHS and the 
U.S. interagency, Immigration and Custom Enforcement, 
Transportation Security Administration, U.S. Coast Guard, 
Department of State, and the Department of Defense, to name a 
few.
    International partnerships are also a part of priority. For 
example, the NTC is a key participant and hosts the 
International Targeting Center, the first of its kind targeting 
cell with personnel from the United States, Canada, Australia, 
and New Zealand and the United Kingdom that coordinate joint 
multilateral targeting efforts.
    Also collocated with the NTC is the National Vetting Center 
or NVC. The NVC is a collaborative interagency effort to 
provide a clear picture on the threats to National security and 
border security and public safety posed by individuals seeking 
to transit our borders or exploit our immigration systems. My 
colleague, Director Monte Hawkins, will discuss the NVC in 
greater detail.
    In conclusion, with our partners, CBP has built a multi-
layered approach for vetting, identifying, and taking 
appropriate action to prevent travelers from arriving in the 
United States who may pose a threat to the homeland. We will 
continue to use all means within our authority to protect the 
Nation and its citizens.
    Thank you for your time, and I look forward to your 
questions.
    [The joint prepared statement of Mr. Conroy and Mr. Hawkins 
follows:]
     Joint Prepared Statement of Donald Conroy and Monte B. Hawkins
                             April 2, 2019
    Chairwoman Rice, Chairman Rose, Ranking Member Higgins, Ranking 
Member Walker, and distinguished subcommittee Members, it is our honor 
to appear before you today to discuss U.S. Customs and Border 
Protection's (CBP) role in preventing terrorist travel.
    As the unified border security agency of the United States, CBP is 
responsible for securing our Nation's borders while facilitating the 
flow of legitimate international travel and trade that is so vital to 
our Nation's economy. Within this broad responsibility, our priority 
mission remains to prevent terrorists and terrorist weaponry from 
entering the United States. To do this, CBP works to identify risks as 
early as possible in the travel continuum, and to implement secure 
protocols for addressing potential threats. CBP works with its 
counterparts to apply its capabilities at multiple points in the travel 
cycle to increase security by receiving advance information, employing 
sophisticated targeting systems to detect risk, and acting through a 
global network to address risks or prevent the movement of identified 
threats toward the United States at the earliest possible point in 
their travel, while also protecting the privacy and civil liberties of 
legitimate travelers.
    In concert with its partners, CBP strives to ensure that travelers 
who may present a risk are appropriately interviewed or vetted, and 
that any document deficiencies are addressed, before traveling to the 
United States. CBP has placed officers in strategic airports overseas 
to work with carriers and host nation authorities. CBP has also built 
strong liaisons with airline representatives to improve our ability to 
address threats as early as possible to effectively expand our security 
efforts beyond the physical borders of the United States. CBP plays a 
vital role in our Nation's efforts to prevent terrorists and other 
criminal actors from acquiring U.S. visas or traveling through the Visa 
Waiver Program (VWP) to the United States. CBP works in close 
collaboration with our interagency and international government 
partners, and has a layered enforcement strategy. As part of this 
effort, we are modernizing screening, expanding information sharing 
within our Government and with foreign partners, and exploring 
innovative approaches for detecting threats.
    Over the past 5 years, international travel has grown by more than 
10 percent overall and more than 22 percent at airports. In fiscal year 
2018, CBP inspected more than 413 million travelers at 328 ports of 
entry (POE), of which more than 130 million flew into air POEs. CBP's 
pre-departure strategy is one of the ways we help our interagency, 
foreign government, and private-sector partners to deny international 
travel to potential terrorists and criminals. A major component of this 
strategy is the recommendation to deny or revoke visas, as well as 
denying or revoking eligibility to travel under the VWP to individuals 
who may present a risk to National security or public safety. It is a 
risk-based, intelligence-driven strategy that extends our border 
security efforts outward to detect, assess, and mitigate, at the 
earliest possible point in the travel continuum, security risks posed 
by travelers before they reach the United States. As threats evolve, 
CBP works in close partnership with our foreign counterparts to develop 
greater situational awareness of emerging threats, leverage partner 
capabilities to affect threat networks, and coordinate enforcement 
actions. These concerns are not limited to the United States and there 
is a growing international commitment to combating these shared threats 
to our security.
                 visa and travel authorization security
    Before arriving to the United States, most foreign nationals must 
obtain a non-immigrant visa from the U.S. Department of State (DOS)--
issued at a U.S. Embassy or consulate. The visa process involves 
multiple security checks, including screening of applicants against a 
wide array of criminal and terrorist databases to verify the 
individual's identity and to detect derogatory information that might 
lead to an inadmissibility determination, as well as an in-person 
interview with the applicant.
    CBP also conducts vetting of all valid immigrant and non-immigrant 
visas issued. Although the visa application and adjudication processes 
rest with the DOS, CBP's National Targeting Center (NTC) conducts 
continuous vetting of valid U.S. immigrant and nonimmigrant visas, and 
ensures that those visas that have been revoked are not used to travel 
to the United States. Recurrent vetting ensures that changes in a 
traveler's admissibility and eligibility for travel are identified in 
near-real time, allowing CBP to immediately determine if it is 
necessary to take action prior to a subject's arrival to the United 
States, such as a ``no board'' recommendation to a carrier, and/or a 
recommendation to the DOS to revoke the visa.
    Those seeking to travel to the United States via air or sea and 
under the VWP must apply for and be approved for a travel authorization 
via the Electronic System for Travel Authorization (ESTA). Through 
ESTA, CBP conducts vetting of potential VWP travelers to assess whether 
they are eligible to travel under the VWP or could pose a risk to the 
United States or the public at large. All ESTA applications are vetted 
against security and law enforcement databases, and CBP automatically 
refuses authorization to individuals who are found to be ineligible to 
travel to the United States under the VWP. Similarly, current and valid 
ESTAs may be revoked if concerns arise through recurrent vetting.\1\ 
Relevant components and offices within the Department of Homeland 
Security (DHS), as well as our partner agencies, work with CBP to 
periodically assess the questions asked of VWP travelers through ESTA 
and make adjustments based on trend analysis or technological 
developments.
---------------------------------------------------------------------------
    \1\ Recurrent vetting is on-going throughout the period of validity 
of the ESTA. ESTA applicants who are denied may apply for a 
nonimmigrant visa.
---------------------------------------------------------------------------
    Recurrent vetting helps us determine whether such travel poses a 
law enforcement or security risk by checking data provided to CBP 
against information from a variety of sources, including the Terrorist 
Screening Database and information regarding lost/stolen passports, 
INTERPOL wants/warrants, and U.S. immigration violations.
                          advance information
    CBP's use of advance information, its pre-departure targeting 
operations, and its overseas footprint all comprise critical parts of 
our multi-layered security strategy to address concerns long before 
they reach the physical border of the United States. U.S. law requires 
all private and commercial air and sea carriers operating routes to, 
from, or through (overflying) the United States to provide Advance 
Passenger Information (API) and, for commercial aircraft, Passenger 
Name Record (PNR) data to CBP. API is primarily derived from the 
machine-readable zone of the traveler's passport and includes full 
name, date of birth, citizenship, as well as information about the 
flight. PNR contains the data that an airline captures during the 
process of booking a flight reservation. PNR in particular can 
illuminate associations that assist in finding the unknown threats. 
This biographic data is vetted against U.S. and international law 
enforcement and counterterrorism databases to identify high-risk 
individuals before their arrival in the United States.
    CBP supports U.S. Government efforts to help other countries 
implement U.N. Security Council Resolution (UNSCR) 2178, which calls 
for strengthened information sharing on known and suspected terrorists, 
and UNSCR 2396, which mandates the establishment of PNR systems. One 
way that CBP does this is by sharing our system--the Automated 
Targeting System-Global (ATS)--with interested partner countries. ATS-G 
is a Government-off-the shelf, real-time passenger screening system 
developed by CBP that processes international flight and traveler data 
to assist foreign partner government officials in the decision-making 
process about whether a passenger or crewmember should receive 
additional screening.
                           arrival processing
    Even if issued a visa or other travel authorization, however, it is 
important to note that before being admitted to the United States, all 
persons are still subject to inspection by CBP officers. CBP officers 
review entry documents, query CBP and other law enforcement databases, 
collect biometrics (including from VWP travelers),\2\ and interview all 
travelers to determine the purpose and intent of their travel, and 
whether any further inspection is necessary based on, among other 
things, National security, admissibility, customs, or agriculture 
concerns.
---------------------------------------------------------------------------
    \2\ Biometrics are collected for most foreign nationals arriving at 
U.S. airports.
---------------------------------------------------------------------------
    In addition, CBP's Tactical Terrorism Response Teams (TTRT) are 
deployed at U.S. POEs and consist of CBP officers who are specially 
trained in counterterrorism response. TTRT officers utilize information 
derived from targeting and inspection to mitigate possible threats. 
TTRT officers are immersed in the current and developing threat picture 
through the continuous review of information, and are responsible for 
the examination of travelers suspected of having a nexus to terrorism 
who arrive at a POE.
                       national targeting center
    The NTC is positioned to lead the whole-of-Government efforts to 
combat terrorist travel, while simultaneously facilitating legitimate 
trade and travel. At the NTC, advance data and access to law 
enforcement and intelligence records converge to facilitate the 
targeting of travelers and cargo that pose the highest risk to our 
security in all modes of inbound transportation. The NTC takes in large 
amounts of data and uses sophisticated targeting tools and subject-
matter expertise to analyze, assess, and segment risk at every stage in 
the cargo/shipment and travel life cycles. As the focal point of that 
strategy, the NTC leverages Classified, law enforcement, commercial, 
and open-source information in unique, proactive ways to identify high-
risk travelers and shipments at the earliest possible point prior to 
arrival in the United States. We operate 24/7/365. The NTC is also a 
key participant in the International Targeting Center, the first-of-
its-kind targeting cell with personnel from 5 countries \3\ that 
coordinate joint multilateral targeting efforts.
---------------------------------------------------------------------------
    \3\ The United States, Canada, New Zealand, Australia, and the 
United Kingdom.
---------------------------------------------------------------------------
                        national vetting center
    Co-located within the NTC is the National Vetting Center (NVC), the 
next step in the helping CBP protect our Nation. The NVC is a 
collaborative, interagency effort to provide a clearer picture of the 
threats to National security, border security, and public safety posed 
by individuals seeking to transit our borders or exploit our 
immigration system. The NVC strengthens, simplifies, and streamlines 
the complex way that intelligence, law enforcement, and other 
information is used to inform operational vetting decisions. It also 
allows departments and agencies to contribute their unique information 
while ensuring compliance with applicable laws and policies, and 
maintaining robust privacy, civil rights, and civil liberties 
protections.
                     overseas enforcement programs
    CBP's overseas enforcement programs--Preclearance, Immigration 
Advisory, and Joint Security Programs (IAP/JSP), and Regional Carrier 
Liaison Groups (RCLGs)--provide the ability to address the risk posed 
by travelers before they reach the United States, or prevent the 
movement of identified threats toward the United States at the earliest 
possible point.
Preclearance Operations
    Preclearance operations provide CBP's highest level of capability 
overseas. At preclearance locations, CBP officers work in uniform, have 
the legal authorities to question travelers and inspect luggage, and 
complete the same immigration, customs, and agriculture inspections of 
passengers as at domestic ports of entry. Passengers at a preclearance 
facility found to be inadmissible to the United States are denied 
permission to board the aircraft. All mission requirements are 
completed at the preclearance port prior to travel, which allows the 
aircraft to arrive at a domestic airport gate in the United States and 
travelers to proceed to their final destination without further CBP 
processing, as if they had arrived on a domestic flight; this is a 
major efficiency for travelers, carriers, and airports.
    Preclearance offers benefits for both travel security and 
facilitation, more comprehensive than those available with IAP/JSP and 
RCLGs. On a sliding scale, each provides more security coverage than 
the next--RCLGs are located State-side and provide recommendations 
through established relationships with commercial airlines; IAP and JSP 
provide on-site location recommendations, but function in an advisory 
capacity with voluntary compliance, providing a more limited level of 
coverage at international locations; preclearance, however, provides 
for the complete security screening and formal determination of 
admissibility to the United States for all travelers before passengers 
ever board a U.S.-bound flight. Through preclearance, CBP is able to 
work with foreign law enforcement officials and commercial carriers to 
prevent the boarding of potentially high-risk travelers.
    Reinforcing CBP's layered approach to security, CBP always retains 
the authority to conduct further inspection or engage in enforcement 
action of a pre-cleared flight upon its arrival in the United States. 
Preclearance affords the United States the highest level coverage and 
ability to intercept threats before they reach the United States.
Immigration Advisory Program (IAP)/Joint Security Program (JSP)
    Compared to CBP's preclearance operations, IAP and JSP provide a 
more limited level of coverage at international locations. Building on 
the IAP concept, CBP launched the JSP, partnering with host country law 
enforcement to identify air passengers linked to terrorism, narcotics, 
weapons, and currency smuggling.
    Using advance information from the NTC, IAP officers work in 
partnership with host government authorities to identify possible 
terrorists and other high-risk passengers. When a threat is identified, 
IAP officers issue no-board recommendations to commercial air carriers, 
helping to prevent terrorists, high-risk, and improperly documented 
travelers from boarding commercial flights destined for the United 
States. Using mobile technology, IAP and JSP officers conduct database 
queries and coordinate with the NTC to confirm whether a traveler is a 
watch-listed individual. IAP and JSP officers also evaluate the 
potential risks presented by non-watch-listed travelers.
    The IAP and JSP programs are based on the cooperation of the 
airlines and the host government. IAP and JSP officers do not have the 
legal authority to compel air carrier or traveler compliance that CBP 
officers have at a port of entry in the United States or at a 
preclearance facility overseas. Nevertheless, an IAP or JSP officer's 
no-board recommendations to an air carrier regarding inadmissible 
travelers are generally accepted and followed by airlines. Cumulative 
IAP and JSP no-board recommendations have resulted in savings in 
adverse action processing costs for travelers who would have been 
denied entry at U.S. POEs and savings to commercial carriers in costs 
associated with the transportation of improperly documented travelers.
Regional Carrier Liaison Groups (RCLGs)
    Finally, the RCLGs were developed to provide coverage of non-IAP 
airports and support preclearance airports. RCLGs are staffed by CBP 
officers and utilize established relationships with the commercial 
airlines to prevent passengers who may pose a security threat, have 
fraudulent documents, or are otherwise inadmissible from boarding 
flights to the United States.
                               conclusion
    The threat against our Nation remains significant, and every day 
the men and women of CBP are dedicated to identifying and preventing 
those who intend to harm our country and its people access to the 
homeland. We want to thank Chairwoman Rice, Chairman Rose, Ranking 
Member Higgins, Ranking Member Walker, and the Members of the 
subcommittees for their support of CBP's counterterrorism mission. We 
appreciate your time and look forward to your questions.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Hawkins to summarize his statement for 
5 minutes.

   STATEMENT OF MONTE B. HAWKINS, DIRECTOR, NATIONAL VETTING 
          CENTER, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Hawkins. Chairwoman Rice, Chairman Rose, Ranking Member 
Higgins, Ranking Member Walker, and distinguished subcommittee 
Members, thank you for the opportunity to appear before you 
today. My name is Monte Hawkins, and I am the director of the 
National Vetting Center, or NVC. I would like to discuss our 
role in preventing any terrorist travel.
    The NVC was established more than a year ago when President 
Trump signed National Security Presidential Memorandum Number 
9. In that memorandum, the President directed the Secretary of 
Homeland Security, in coordination with the Secretary of State, 
the attorney general and the director of national intelligence 
to establish the NVC to improve the manner in which agencies 
coordinate and use information to identify threats to National 
security.
    Since September 11, 2001, agencies have independently 
incorporated new technologies and processes to improve the way 
they leverage sensitive intelligence and law enforcement 
information when vetting applicants for travel and immigration-
related benefits. However, these processes were often designed 
for single uses, only leverage portions of relevant information 
and weren't adaptable to address an evolving all-threats 
landscape.
    They did not maximize our ability to provide the sensitive 
information in a timely and effective manner. What was missing 
was a single coordinating entity to address these issues and 
ensure that adjudicators at the Department of Homeland 
Security, the Department of State and elsewhere receive what 
they need when they need it for National security partners.
    The NVC was created to solve these problems by providing a 
common technology platform and process to allow for a 
coordinated and comprehensive review of relevant information. 
It streamlines the transfer of unclassified applicant and 
traveler information to Classified environments where it is 
compared against highly restricted information held by National 
security partners.
    The NVC does not make any adjudications itself, though. 
Instead, it presents the results of these comparisons in a 
single user interface for use by the agencies responsible for 
adjudicating immigration and travel benefits.
    This provides them, for the first time, with a single 
picture of all the dots of sensitive information to evaluate. 
Now, immigration and border security decisions will be fully 
informed before an adjudication is made.
    All proposed activities of the NVC are reviewed in advance 
by separate interagency legal and privacy civil rights and 
civil liberties working groups. These groups report directly to 
the National Vetting Governance Board, an interagency oversight 
body charged with providing guidance and direction to the NVC 
in the National vetting enterprise.
    This P.M.-9 empowered the Secretary of Homeland Security to 
assign and oversee a director for the NVC. She subsequently 
delegated those responsibilities to the CBP commissioner. The 
NVC was not envisioned to be a large bureaucracy so it made 
sense for CBP to collocate the NVC with its first CBP 
beneficiary, the National Targeting Center.
    But while we are collocated and coordinate closely, the NTC 
and NVC are different entities with different functions. As 
Director Conroy just explained, the NTC, and specifically NTC 
Passenger, conducts analysis and targeting to make tactical 
adjudication decisions at all points in the travel continuum.
    The NVC will ensure that those analysts and targeters 
receive better, more timely access to the sensitive information 
they need to make those adjudication decisions. The NTC is a 
beneficiary of the services the NVC is providing.
    The NVC began a phased deployment of operations on December 
12, 2018 in support of NTC's vetting of applicants for visa 
waiver travel authorization to the United States, also known as 
ESTA.
    In the future, if approved by the National Vetting 
Governance Board, the NVC will endeavor to provide the same 
level of support to other agencies making travel and 
immigration-related decisions, including the State Department, 
other parts of CBP and other components of DHS.
    In summary, the NVC is an essential and long-awaited 
component of the U.S. Government's National vetting enterprise. 
It furthers the 9/11 Commission's recommendations to enhance 
interagency collaboration to provide a clear picture of threats 
against the United States so we can take action to protect the 
American people.
    Thank you for the opportunity to testify before you today, 
and I look forward to your questions.
    Mr. Rose. Thank you for your testimony.
    I now recognize Ms. Gambler to summarize her statement for 
5 minutes.

  STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY & 
      JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairman Rose, Chairwoman Rice, 
Ranking Member Walker, Ranking Member Higgins, and Members of 
the subcommittee. I appreciate the opportunity to testify at 
today's hearing to discuss GAO's work on the screening and 
vetting of non-immigrant visa applicants and efforts to screen 
and inspect air travelers seeking to come to the United States.
    Each year the Department of State adjudicated millions of 
applications for non-immigrant visas. These visas are issued to 
foreign nationals, such as tourists and students, seeking 
temporary admission into the United States.
    CBP is responsible for inspecting individuals applying for 
admission to the United States at ports of entry and processes 
millions of travelers applying for admission each year.
    Today I will summarize GAO's past work on data and 
information related to the adjudication of non-immigrant visa 
applications and CBP's efforts to screen and inspect air 
travelers.
    First, with regard to State adjudications of non-immigrant 
visa applications, between fiscal years 2012 and 2017 the total 
number of applications adjudicated annually peaked at about 
13.4 million in fiscal year 2016.
    This represented an increase of approximately 30 percent 
since fiscal year 2012. In fiscal year 2017, non-immigrant visa 
adjudications decreased by about 7 percent.
    On the basis of its adjudication of applications, State 
either issues non-immigrant visas or refuses them. Between 
fiscal years 2012 and 2017, the total number of non-immigrant 
visas issued peaked in fiscal year 2015 at about 10.89 million. 
This number fell to 9.68 million in fiscal year 2017.
    The percentage of non-immigrant visas refused, known as the 
refusal rate, increased over the time period we reviewed. More 
specifically, the non-immigrant visa refusal rate rose from 
about 14 percent in fiscal year 2012 to about 22 percent in 
fiscal year 2016 and remained about the same in fiscal year 
2017.
    Non-immigrant visa applicants can be refused a visa on a 
number of grounds. State data indicate that more than 90 
percent of non-immigrant visas refused each year from fiscal 
years 2012 through 2017 were based on the consular officer's 
determination that the applicants were ineligible non-
immigrants.
    Put differently, the consular officers believed that an 
applicant was an intending immigrant seeking to stay 
permanently in the United States or did not demonstrate 
eligibility for the particular visa he or she was seeking.
    State data indicates that relatively few applicants, 
approximately 0.05 percent, were refused for terrorism or other 
security-related reasons during the time period we reviewed.
    Second, with regard to CBP's screening efforts, CBP screens 
all air travelers coming to the United States and seeks to 
identify potentially high-risk travelers at the earliest point 
in the travel life cycle. CBP also operates three pre-departure 
programs to help identify and interdict high-risk travelers 
before they board U.S.-bound flights. These programs are pre-
clearance, the Immigration Advisory and Joint Security programs 
and the regional carrier liaison groups.
    Pre-clearance locations operate at foreign airports and 
serve as U.S. ports of entry. CBP officers at these locations 
inspect travelers and make admissibility determinations prior 
to an individual boarding a plane to the United States.
    Under the Immigration Advisory and Joint Security programs, 
CBP officers posted at foreign airports partner with air 
carriers and host country Government officials to help prevent 
terrorists and other high-risk individuals from boarding U.S.-
bound flights.
    Regional carrier liaison groups are located and operate at 
domestic airports, and among other things, assist air carriers 
with questions regarding U.S. admissibility requirements and 
travel document authenticity. CBP data indicated that in fiscal 
year 2015 these programs identified and interdicted 
approximately 22,000 high-risk air travelers.
    However, we found that while CBP has data and statistics on 
these programs, the agency has not evaluated the effectiveness 
of these programs as a whole, including having performance 
measures and baselines to assess whether the programs are 
achieving their stated goals.
    We recommended that CBP develop and implement such measures 
and baselines to better assess the effectiveness of these pre-
departure programs and DHS concurred. CBP has actions under way 
to address this recommendation and we will continue to monitor 
these efforts.
    This concludes my oral statement and I am pleased to answer 
any questions Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             April 2, 2019
                             gao highlights
    Highlights of GAO-19-477T, a testimony before the Subcommittees on 
Border Security, Facilitation, and Operations, and Intelligence and 
Counterterrorism, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    Previous attempted and successful terrorist attacks against the 
United States have raised questions about the security of the U.S. 
Government's screening and vetting processes for NIVs. State manages 
the visa adjudication process. DHS seeks to identify and interdict 
travelers who are potential security threats to the United States, such 
as foreign fighters and potential terrorists, human traffickers, drug 
smugglers and otherwise inadmissible persons, at the earliest possible 
point in time. DHS also has certain responsibilities for strengthening 
the security of the visa process. In 2017, the President issued 
Executive Actions directing agencies to improve visa screening and 
vetting, and establishing nationality-based visa entry restrictions, 
which the Supreme Court upheld in June 2018.
    This statement addresses: (1) Data and information on NIV 
adjudications and (2) CBP programs aimed at preventing high-risk 
travelers from boarding U.S.-bound flights. This statement is based on 
prior products GAO issued in January 2017 and August 2018, along with 
selected updates conducted in December 2018 to obtain information from 
DHS on actions it has taken to address a prior GAO recommendation.
What GAO Recommends
    GAO previously recommended that CBP evaluate the effectiveness of 
its predeparture programs. DHS agreed with GAO's recommendation and CBP 
has actions under way to address it.
 border security.--u.s. government efforts to strengthen nonimmigrant 
           visa security and address high-risk air travelers
What GAO Found
    In August 2018, GAO reported that the total number of nonimmigrant 
visa (NIV) applications that Department of State (State) consular 
officers adjudicated annually increased from fiscal years 2012 through 
2016, but decreased in fiscal year 2017 (the most recent data available 
at the time of GAO's report). NIVs are issued to foreign nationals, 
such as tourists, business visitors, and students, seeking temporary 
admission into the United States. The number of adjudications peaked at 
about 13.4 million in fiscal year 2016, and decreased by about 880,000 
adjudications in fiscal year 2017. State refused about 18 percent of 
adjudicated applications during this time period, of which more than 90 
percent were because the applicant did not qualify for the visa sought 
and 0.05 percent were due to terrorism and security-related concerns. 
In 2017, two Executive Orders and a proclamation issued by the 
President required, among other actions, visa entry restrictions for 
nationals of certain listed countries of concern. GAO's analysis 
indicates that, out of the nearly 2.8 million NIV applications refused 
in fiscal year 2017, 1,338 applications were refused specifically due 
to visa entry restrictions implemented per the executive actions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In January 2017, GAO reported that the Department of Homeland 
Security's (DHS) U.S. Customs and Border Protection (CBP) operates 
predeparture programs to help identify and interdict high-risk 
travelers before they board U.S.-bound flights. CBP officers inspect 
all U.S.-bound travelers on those flights that are precleared at the 15 
Preclearance locations at foreign airports--which serve as U.S. ports 
of entry--and, if deemed inadmissible, a traveler will not be permitted 
to board the aircraft. CBP also operates 9 Immigration Advisory Program 
and 2 Joint Security Program locations, as well as 3 Regional Carrier 
Liaison Groups, through which CBP may recommend that air carriers not 
permit identified high-risk travelers to board U.S.-bound flights. CBP 
data showed that it identified and interdicted over 22,000 high-risk 
air travelers through these programs in fiscal year 2015 (the most 
recent data available at the time of GAO's report). While CBP tracked 
some data, such as the number of travelers deemed inadmissible, it had 
not fully evaluated the overall effectiveness of these programs. GAO 
recommended that CBP develop a system of performance measures and 
baselines to better position CBP to assess program performance. As of 
December 2018, CBP set preliminary performance targets for fiscal year 
2019, and plans to set targets for future fiscal years by October 31, 
2019. GAO will continue to review CBP's actions to address this 
recommendation.
    Chairwoman Rice, Chairman Rose, Ranking Members Higgins and Walker, 
and Members of the subcommittees: I am pleased to be here today to 
discuss GAO's body of work on U.S. Government activities related to 
screening and vetting nonimmigrant visa (NIV) applicants, and 
identification and interdiction of international air travelers who are 
potential security threats to the United States. Foreign nationals who 
wish to come to the United States on a temporary basis must generally 
obtain a NIV authorizing their travel to the United States.\1\ In 
particular, from fiscal years 2010 through 2015, the Department of 
State (State) issued more than 52 million visas for business travel, 
pleasure, or for foreign student and cultural exchange programs, among 
other things.\2\
---------------------------------------------------------------------------
    \1\ See 8 U.S.C.  1185, 1201, 1202. Nonimmigrant visas are issued 
to foreign nationals seeking temporary admission into the United States 
under a specific nonimmigrant category (8 U.S.C.  1101(a)(15); 8 
C.F.R.  214.1(a)(1)-(2)), for an authorized period of stay delineated 
by a particular time frame, or for the duration of a specific program 
or activity, which may be variable. A visa is not required for travel 
to the United States by citizens of Canada, as well as participants in 
the Visa Waiver Program, through which nationals of certain countries 
may apply for admission to the United States as temporary visitors for 
business or pleasure without first obtaining a visa from a U.S. embassy 
or consulate abroad. See 8 U.S.C.  1187; 8 C.F.R.  212.1, 214.6(d), 
217.1-217.7; 22 C.F.R.  41.0-41.3. Foreign nationals seeking 
permanent status in the United States must generally obtain an 
immigrant visa, which provides a path to lawful permanent residency. 
Throughout this statement we generally use the term ``foreign 
national'' to refer to an ``alien,'' which is defined under U.S. 
immigration law as any person who is not a U.S. citizen or national. 
See 8 U.S.C.  1101(a)(3).
    \2\ For the purposes of this statement, where we use the term 
``visa,'' it is in reference to a nonimmigrant visa.
---------------------------------------------------------------------------
    Previous attempted and successful terrorist attacks against the 
United States have raised questions about the security of the U.S. 
Government's screening and vetting processes for NIVs. For example, the 
December 2015 shootings in San Bernardino, California, led to concerns 
about NIV screening and vetting processes because one of the attackers 
was admitted into the United States under a NIV. Beginning in calendar 
year 2017, the President issued Executive Actions aimed at improving 
the screening and vetting protocols and procedures associated with the 
visa issuance process, including the imposition of visa entry 
restrictions for certain categories of foreign nationals from 
designated countries.\3\ Specifically, the President issued two 
Executive Orders and a Presidential proclamation that required, among 
other actions, visa entry restrictions for nationals of certain 
countries of concern, a review of information needed for visa 
adjudication, and changes to visa (including NIV) screening and vetting 
protocols and procedures.\4\
---------------------------------------------------------------------------
    \3\ See Exec. Order No. 13780, Protecting the Nation From Foreign 
Terrorist Entry Into the United States, 82 Fed. Reg. 13,209 (Mar. 9, 
2017) (issued Mar. 6). Executive Order (EO) 13780 revoked and replaced 
a prior EO of the same title, Exec. Order No. 13769, 82 Fed. Reg. 8977 
(Feb. 1, 2017) (issued Jan. 27), implementation of which had largely 
been halted Nation-wide shortly after issuance by Federal court 
injunction. Visa entry restrictions under EO 13780 were also blocked by 
the Federal district courts in March 2017 but, upon review in June 
2017, the U.S. Supreme Court permitted implementation of such 
restrictions subject to an exception for foreign travelers with bona 
fide ties to the United States. Pursuant to section 2(e) of EO 13780, 
the President issued Proclamation No. 9645, 82 Fed. Reg. 45,161 (Sept. 
27, 2017) (issued Sept. 24), which restricted entry into the United 
States of nationals from 8 countries (Chad, Iran, Libya, North Korea, 
Somalia, Syria, Venezuela, and Yemen) for an indefinite period. 82 Fed. 
Reg. 45,161 (Sept. 27, 2017). The Department of State announced that it 
began fully implementing the proclamation on December 8, 2017, as 
permitted by the Supreme Court's December 4 order. The proclamation's 
nationality-based visa entry restrictions were upheld by the Supreme 
Court in June 2018.
    \4\ GAO has previously reported on the implementation of these 
Executive Orders. See GAO, Border Security and Immigration: Initial 
Executive Order Actions and Resource Implications, GAO-18-470 
(Washington, DC: June 12, 2018).
---------------------------------------------------------------------------
    State is responsible for visa adjudication and issuance for foreign 
nationals and is responsible for managing the consular officer corps 
and its functions at over 220 visa-issuing posts overseas.\5\ The 
process for determining who will be issued or refused a visa contains 
several steps, including completing an on-line visa application and 
appearing for an in-person interview at a U.S. embassy or consulate, as 
shown in figure 1.\6\
---------------------------------------------------------------------------
    \5\ See 6 U.S.C.  236(c), (d); 8 U.S.C.  1201-1202.
    \6\ See 8 U.S.C.  1202(a), (c), (h); 22 C.F.R.  41.102, 42.62. 
Generally, all applicants aged 14 through 79 applying for an NIV must 
be interviewed in person by a consular officer unless the interview 
requirement is waived pursuant to statute.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The various security checks NIV applicants undergo generally screen 
the applicant's information (biographic and biometric) against multiple 
U.S. Government databases to identify potential matches with records of 
individuals who are known threats to the United States or other 
derogatory information that could make the applicant ineligible. In 
addition, biometric checks include running an applicant's fingerprints 
and full-face photograph against multiple Government systems. Further, 
at some locations overseas, Department of Homeland Security's (DHS) 
Visa Security Program uses the Pre-Adjudicated Threat Recognition and 
Intelligence Operations Team check to identify National security, 
public safety, and other eligibility concerns related to visa 
applicants.\7\ Prior to adjudicating the visa application, consular 
officers must review all such security check results.\8\ DHS also vets 
individuals with NIVs on a recurrent basis, which has resulted in State 
revoking visas after they have been issued when information was later 
discovered that rendered the individual inadmissible to the United 
States or otherwise ineligible for the visa.\9\
---------------------------------------------------------------------------
    \7\ We reported on the Visa Security Program in March 2018. The 
Visa Security Program provides an additional level of NIV screening and 
vetting by deploying agents to certain posts overseas to work with 
consular officers and review NIV applications. See GAO, Border 
Security: Actions Needed to Strengthen Performance Management and 
Planning for Expansion of DHS's Visa Security Program, GAO-18-314 
(Washington, DC: Mar. 20, 2018).
    \8\ Some applicants are not subjected to all of the security checks 
depending on certain characteristics, such as age and visa category. 
For example, State generally does not require that fingerprints be 
collected for applicants who are either under 14 years old or over 79 
years old, or for foreign government officials seeking certain visas. 
According to State officials, although some applicants do not undergo 
fingerprint screening, their biographic information is screened against 
records in the National Crime Interstate Identification Index, which 
contains criminal history information, via State's Consular Lookout and 
Support System check. National Crime Interstate Identification Index 
records include information on persons who are indicted for, or have 
been convicted of, a crime punishable by imprisonment for a term 
exceeding 1 year or have been convicted of a misdemeanor crime of 
domestic violence.
    \9\ A consular officer or the Secretary of State is authorized to 
revoke a visa or other documentation at any time, at his or her 
discretion. A revoked visa is no longer valid for entry or reentry to 
the United States. INA  221(i) (8 U.S.C.  1201(i)).
---------------------------------------------------------------------------
    In addition, DHS seeks to identify and interdict travelers who are 
potential security threats to the United States, such as foreign 
fighters and potential terrorists, human traffickers, drug smugglers, 
and otherwise inadmissible persons, at the earliest possible point in 
the travel life cycle. In particular, DHS's U.S. Customs and Border 
Protection (CBP) is tasked with, among other duties, processing all 
travelers on U.S.-bound flights and inspecting all people entering or 
applying for admission to the United States. CBP's National Targeting 
Center (NTC) conducts traveler data matching, which assesses whether 
travelers are high-risk by matching their information against U.S. 
Government databases and lists, and rules-based targeting, which 
enables CBP to identify unknown high-risk individuals. CBP operates 
multiple predeparture programs that use the results of NTC's analyses 
to help identify and interdict high-risk travelers before they board 
U.S.-bound flights.
    My testimony discusses: (1) Data and information on NIV 
adjudications and (2) CBP air predeparture programs. This testimony is 
based on our prior reports, in particular, those published in January 
2017 and August 2018.\10\ For these reports, we reviewed agency 
policies and procedures for NIV screening and predeparture programs; 
conducted site visits to selected locations to observe NIV operations 
and the predeparture targeting process; and collected and analyzed 
data. Additional details on the scope and methodology are available in 
our published reports. In addition, this statement contains updates to 
selected information from these reports. For the updates, we collected 
information from DHS on actions it has taken to address findings and 
recommendations made in prior reports on which this statement is based. 
All of our work was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \10\ GAO, Border Security: CBP Aims to Prevent High-Risk Travelers 
from Boarding U.S.-Bound Flights, but Needs to Evaluate Program 
Performance, GAO-17-216 (Washington, DC: Jan. 24, 2017); and 
Nonimmigrant Visas: Outcomes of Applications and Changes in Response to 
2017 Executive Actions, GAO-18-608 (Washington, DC: Aug. 7, 2018).
---------------------------------------------------------------------------
  number of niv adjudications and refusal rates increased from fiscal 
       years 2012 through 2016, and declined in fiscal year 2017
NIV Adjudications Increased Annually from Fiscal Years 2012 through 
        2016 and Declined in Fiscal Year 2017
    We reported in August 2018 that the total number of NIV 
applications that consular officers adjudicated (NIV adjudications) 
annually peaked at about 13.4 million in fiscal year 2016, which was an 
increase of approximately 30 percent since fiscal year 2012.\11\ In 
fiscal year 2017 (the most recent data available at the time of our 
report), NIV adjudications decreased by about 880,000 adjudications, or 
about 7 percent. Figure 2 shows the number of applications adjudicated 
each year from fiscal years 2012 through 2017.
---------------------------------------------------------------------------
    \11\ GAO-18-608.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
Most NIV Applications Refused from Fiscal Years 2012 through 2017 Were 
        for Reasons Other than Terrorism and Other Security-Related 
        Concerns
    As shown in figure 2, the percentage of NIVs refused--known as the 
refusal rate--increased from fiscal years 2012 through 2016, and was 
about the same in fiscal year 2017 as the previous year.\12\ The NIV 
refusal rate rose from about 14 percent in fiscal year 2012 to about 22 
percent in fiscal year 2016, and remained about the same in fiscal year 
2017; averaging about 18 percent over the time period. The total number 
of NIVs issued peaked in fiscal year 2015 at about 10.89 million, 
before falling in fiscal years 2016 and 2017 to 10.38 million and 9.68 
million, respectively.
---------------------------------------------------------------------------
    \12\ The refusal rate is the number of visas that were ultimately 
refused divided by the total number of adjudications.
---------------------------------------------------------------------------
    According to State data, while the majority of NIV refusals from 
fiscal years 2012 through 2017 were a result of consular officers 
finding the applicants ineligible, a relatively small number of 
refusals were due to terrorism and other security-related concerns. 
State data indicate that more than 90 percent of NIVs refused each year 
from fiscal years 2012 through 2017 were based on the consular 
officers' determination that the applicants were ineligible 
nonimmigrants--in other words, the consular officers believed that the 
applicant was an intending immigrant seeking to stay permanently in the 
United States, which would generally violate NIV conditions, or that 
the applicant otherwise failed to demonstrate eligibility for the 
particular visa he or she was seeking. For example, an applicant 
applying for a student visa could be refused as an ineligible 
nonimmigrant for failure to demonstrate possession of sufficient funds 
to cover his or her educational expenses, as required. As we reported 
in August 2018, our analysis of State data indicates that relatively 
few applicants--approximately 0.05 percent--were refused for terrorism 
and other security-related reasons from fiscal years 2012 through 
2017.\13\ As shown in figure 3, in fiscal year 2017, State data 
indicate that 1,256 refusals (or 0.05 percent) were based on terrorism 
and other security-related concerns, of which 357 refusals were 
specifically for terrorism-related reasons.\14\
---------------------------------------------------------------------------
    \13\ INA  212(a)(3) (8 U.S.C.  1182(a)(3)). This ground includes 
engaging in or inciting terrorist activity, being a member of a 
terrorist organization, participating in genocide, espionage, and 
committing torture, among other conditions or activities.
    \14\ The 357 refusals that were specifically for terrorism-related 
reasons do not include applications for which DHS later issued a 
waiver. According to State officials, in addition, there were a total 
of 273 applications that were initially refused for terrorism-related 
reasons in fiscal year 2017, but for which DHS issued a waiver.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Executive Actions Taken in Calendar Year 2017 Introduced New Visa Entry 
        Restrictions and Requirements to Enhance Screening and Vetting, 
        Including for NIVs
    The President issued Executive Order 13769, Protecting the Nation 
from Foreign Terrorist Entry Into the United States (EO-1), in January 
2017.\15\ In March 2017, the President revoked and replaced EO-1 with 
the issuance of Executive Order 13780 (EO-2), which had the same title 
as EO-1.\16\ Among other things, EO-2 suspended entry of certain 
foreign nationals for a 90-day period, subject to exceptions and 
waivers.\17\ In September 2017, as a result of the reviews undertaken 
pursuant to EO-2, the President issued Presidential Proclamation 9645, 
Enhancing Vetting Capabilities and Processes for Detecting Attempted 
Entry into the United States by Terrorists or Other Public-Safety 
Threats (Proclamation), which imposes certain conditional restrictions 
and limitations on the entry of nationals of 8 countries--Chad, Iran, 
Libya, North Korea, Somalia, Syria, Venezuela and Yemen--into the 
United States for an indefinite period.\18\ These restrictions, 
identified in table 1, are to remain in effect until the Secretaries of 
Homeland Security and State determine that a country provides 
sufficient information for the United States to assess adequately 
whether its nationals pose a security or safety threat.\19\ Challenges 
to both EOs and the Proclamation affected their implementation and, 
while EO-2's entry restrictions have expired,\20\ the indefinite visa 
entry restrictions outlined in the Proclamation continued to be fully 
implemented as of our August 2018 report.\21\
---------------------------------------------------------------------------
    \15\ Exec. Order No. 13769, 82 Fed. Reg. 8977 (Feb. 1, 2017) 
(issued Jan. 27) (EO-1).
    \16\ Exec. Order No. 13780, 82 Fed. Reg. 13,209 (Mar. 9, 2017) 
(issued Mar. 6) (EO-2).
    \17\ EO-2, as well as its predecessor EO-1, addressed the immigrant 
and nonimmigrant visa entry of certain foreign nationals, and refugee 
admission through the U.S. Refugee Resettlement Program. In conjunction 
with EO-2, the President, on March 6, also issued a memorandum to the 
Secretaries of State and Homeland Security and the Attorney General, 
calling for heightened screening and vetting of visa applications and 
other immigration benefits. See Memorandum Implementing Immediate 
Heightened Screening and Vetting of Applications for Visas and Other 
Immigration Benefits, Ensuring Enforcement of All Laws for Entry Into 
the United States, and Increasing Transparency Among Departments and 
Agencies of the Federal Government and for the American People, 82 Fed. 
Reg. 16,279 (Apr. 3, 2017). Whereas EO-1 imposed visa entry 
restrictions for a 90-day period for nationals of Iran, Iraq, Libya, 
Somalia, Sudan, Syria, and Yemen, EO-2 imposed such restrictions on the 
same countries listed in EO-1 with the exception of Iraq.
    \18\ Proclamation No. 9645, 82 Fed. Reg. 45,161 (Sept. 27, 2017) 
(issued Sept. 24).
    \19\ For example, on April 10, 2018, the President announced that 
nationals of Chad would no longer be subject to visa entry restrictions 
under Proclamation No. 9645, because Chad's identity-management and 
information sharing practices have improved sufficiently. See 
Maintaining Enhanced Vetting Capabilities and Processes for Detecting 
Attempted Entry Into the United States by Terrorists or Other Public-
Safety Threats, Proclamation No. 9723, 83 Fed. Reg. 15,937 (Apr. 13, 
2018) (issued Apr. 10).
    \20\ After the expiration of EO-2's entry restrictions, the Supreme 
Court vacated and remanded cases related to EO-2 to the Fourth and 
Ninth Circuits with instructions to dismiss them as moot. Trump v. 
Int'l Refugee Assistance Project, 138 S. Ct. 353 (2017); Trump v. 
Hawaii, 138 S. Ct. 377 (2017).
    \21\ According to the U.S. Supreme Court's June 26, 2018 decision, 
the President may lawfully establish nationality-based entry 
restrictions under the INA; therefore, Proclamation 9645 ``is squarely 
within the scope of Presidential authority.'' See Trump v. Hawaii, 138 
S. Ct. 2392 (2018).

    TABLE 1.--PRESIDENTIAL PROCLAMATION NONIMMIGRANT VISA (NIV) ENTRY
        RESTRICTIONS BY COUNTRY OF NATIONALITY (AS OF APRIL 2018)
------------------------------------------------------------------------
   Country(ies) of  Nationality          Scope of NIV Restrictions *
------------------------------------------------------------------------
Yemen, Libya, Chad................  All temporary visitor (B-1, B-2, and
                                     B-1/B-2) visas**.
Syria.............................  All NIVs.
North Korea.......................  All NIVs.
Iran..............................  All NIVs except nonimmigrants
                                     seeking entry on valid student (F
                                     and M) or exchange visitor (J)
                                     visas.
Venezuela.........................  Official-type and diplomatic-type
                                     visas for officials of certain
                                     government agencies and temporary
                                     visitor (B-1, B-2, and B-1/B-2)
                                     visas for their immediate family
                                     members.
Somalia...........................  None***.
------------------------------------------------------------------------
Source: GAO analysis of Presidential Proclamation 9645 of September 24,
  2017./GAO-19-477T
Note: The Presidential Proclamation also permits consular officers to
  grant waivers to the restrictions and authorize the issuance of visas
  on a case-by-case basis if the visa applicant can demonstrate the
  following: (a) Denying entry would cause undue hardship to the
  applicant; (b) the visa applicant's entry would not pose a threat to
  the National security or public safety of the United States; and (c)
  his or her entry would be in the U.S. National interest.
* The Presidential Proclamation has provided certain exceptions to the
  entry restrictions. For example, unless otherwise specified,
  suspensions do not apply to diplomatic (A-1 or A-2) or diplomatic-type
  visas, visas for employees of international organizations and NATO
  (NATO-1-6, G-1, G-2, G-3, or G-4), or visas for travel to the United
  Nations (C-2).
** As of April 10, 2018, the Proclamation's visa entry restrictions are
  not applicable to nationals of Chad.
*** The restrictions for Somalia only apply to immigrant visas, and do
  not apply to NIVs.

    We reported in August 2018 that our analysis of State data 
indicates that out of the nearly 2.8 million NIV applications refused 
in fiscal year 2017, 1,338 were refused due to visa entry restrictions 
implemented in accordance with the Executive Actions.\22\ To implement 
the entry restrictions, in March 2017, State directed its consular 
officers to continue to accept all NIV applications and determine 
whether the applicant was otherwise eligible for a visa without regard 
to the applicable EO or Proclamation.\23\ If the applicant was 
ineligible for the visa on grounds unrelated to the Executive Action, 
such as having prior immigration violations, the applicant was to be 
refused on those grounds. If the applicant was otherwise eligible for 
the visa, but fell within the scope of the nationality-specific visa 
restrictions implemented pursuant to the applicable EO or Proclamation 
and was not eligible for a waiver or exception, the consular officer 
was to refuse the visa and enter a refusal code into State's NIV 
database indicating that the applicant was refused solely due to the 
Executive Actions.\24\ More than 90 percent of the NIV applications 
refused in fiscal year 2017 pursuant to an executive action were for 
tourist and business visitor visas, and more than 5 percent were for 
students and exchange visitors.
---------------------------------------------------------------------------
    \22\ The Proclamation's new indefinite restrictions did not go into 
full effect until fiscal year 2018.
    \23\ State guidance directed consular officers to halt interviews 
for visa applicants subject to EO-1 visa entry restrictions beginning 
on January 28, 2017. This guidance was in place until Federal courts 
halted the implementation of EO-1 visa entry restrictions in February 
2017.
    \24\ State instructed consular officers to use the refusal code for 
a refusal based on section 212(f) of the INA (Presidential suspension 
of, or imposition of restrictions on, alien entry). 8 U.S.C.  1182(f). 
It later created a unique refusal code for refusals related to these 
Executive Actions.
---------------------------------------------------------------------------
cbp's air predeparture programs interdict high-risk air travelers, but 
          cbp has not fully assessed the programs' performance
CBP Identifies and Interdicts High-Risk Travelers Before They Board 
        U.S.-Bound Flights
    As we reported in January 2017, CBP electronically vets all 
travelers before they board U.S.-bound flights, and continues to do so 
until they land at a U.S. port of entry.\25\ Through these vetting 
efforts, CBP seeks to identify high-risk travelers from the millions of 
individuals who travel to the United States each year. As we reported 
in January 2017, CBP's vetting and targeting efforts are primarily 
conducted by its NTC and entail: (1) Traveler data matching and 
analysis, (2) rules-based targeting, and (3) recurrent vetting. 
Specifically:
---------------------------------------------------------------------------
    \25\ GAO-17-216. Ports of entry are facilities that provide for the 
controlled entry into or departure from the United States. 
Specifically, a port of entry is any officially designated location 
(seaport, airport, or land border location) where DHS officers inspect 
persons entering or applying for admission into, or departing the 
United States pursuant to U.S. immigration law.
---------------------------------------------------------------------------
  <bullet> CBP's primary method of identifying high-risk individuals is 
        through the comparison of travelers' information (such as name, 
        date of birth, and gender)\26\ against records extracted from 
        U.S. Government databases, including the Terrorist Screening 
        Database (TSDB)--the U.S. Government's consolidated terrorist 
        watch list.\27\ Traveler data matching focuses on identifying 
        known high-risk individuals--that is, individuals who may be 
        inadmissible to the United States under U.S. immigration law or 
        who may otherwise pose a threat to homeland or National 
        security. CBP's primary tool for vetting and targeting 
        travelers is the Automated Targeting System (ATS), which is a 
        computer-based enforcement and support system that compares 
        traveler information against intelligence and law enforcement 
        data to identify high-risk travelers. Traveler data matching 
        occurs throughout the travel process and, upon a positive or 
        possible match, CBP officers can select these individuals for 
        further vetting, interviewing, and inspection.
---------------------------------------------------------------------------
    \26\ According to CBP officials, information from both: (1) The 
Advance Passenger Information System, which includes biographical 
information such as full name, date of birth, gender, flight number, 
date of arrival and departure, citizenship, and passport/alien 
registration card number, among others; and (2) the Passenger Name 
Record, which refers to reservation information contained in an air 
carrier's electronic reservation system and/or departure control system 
that sets forth the identity and travel plans of each traveler or group 
of travelers included under the same reservation record, are utilized 
in the targeting and vetting of individuals attempting to travel to the 
United States. See 49 U.S.C.  44909; 19 C.F.R.  122.49a, 122.49d.
    \27\ Information in the TSDB comes from two sources: The National 
Counterterrorism Center, which provides information on known or 
suspected international terrorists, and the Federal Bureau of 
Investigation, which provides information about known or suspected 
domestic terrorists. For more information about the process by which 
the U.S. Government manages this watch list, see GAO, Terrorist 
Watchlist: Routinely Assessing Impacts of Agency Actions since the 
December 29, 2009, Attempted Attack Could Help Inform Future Efforts, 
GAO-12-476 (Washington, DC: May 31, 2012).
---------------------------------------------------------------------------
  <bullet> CBP's rules-based targeting efforts seek to identify unknown 
        high-risk travelers--that is, travelers for whom U.S. 
        Government entities do not have available derogatory 
        information directly linking them to terrorist activities or 
        any other actions that would make them potentially inadmissible 
        to the United States but who may present a threat and thus 
        warrant additional scrutiny. CBP identifies unknown high-risk 
        individuals by comparing their information against a set of 
        targeting rules based on intelligence, law enforcement, and 
        other information. NTC officials stated that these rules have 
        identified potential high-risk travelers, including potential 
        foreign fighters. Rules-based targeting evaluates travelers 
        during the travel process and, in some cases, in advance of the 
        travel process. If a traveler is a rule ``hit,'' this 
        individual can be selected for further vetting, interviewing, 
        and inspection.\28\
---------------------------------------------------------------------------
    \28\ In general, when a traveler is identified through rules-based 
targeting, the traveler is considered to have hit a rule.
---------------------------------------------------------------------------
  <bullet> CBP supports its traveler data matching and rules-based 
        targeting efforts through the use of recurrent vetting. NTC's 
        vetting, targeting, and traveler data matching activities in 
        ATS run 24 hours a day and 7 days a week and automatically scan 
        updated traveler information, when available. This process is 
        to ensure that new information that affects a traveler's 
        admissibility is identified in near-real time. Recurrent 
        vetting occurs throughout the travel process and continues 
        until a traveler arrives at a domestic port of entry. For 
        example, after checking into a foreign airport, a traveler may 
        have his or her visa revoked for a security or immigration-
        related violation. Due to recurrent vetting, CBP would be 
        alerted to this through ATS and could take action, as 
        appropriate.
CBP's Air Predeparture Programs Interdict High-Risk Travelers on U.S.-
        Bound Flights, but CBP Has Not Fully Evaluated Overall 
        Effectiveness of These Programs
    As we reported in January 2017, throughout the travel process, 
CBP's predeparture programs use the results of NTC's efforts to 
identify and interdict high-risk individuals destined for the United 
States while they are still overseas; however, we found that CBP had 
not evaluated the effectiveness of its predeparture programs as a 
whole, including implementing a system of performance measures and 
baselines to assess whether the programs are achieving their stated 
goals.\29\
---------------------------------------------------------------------------
    \29\ GAO-17-216.
---------------------------------------------------------------------------
    CBP operates three air predeparture programs that are responsible 
for all U.S.-bound air travelers--(1) Preclearance; (2) the Immigration 
Advisory Program (IAP) and Joint Security Program (JSP); and (3) the 
regional carrier liaison groups (RCLG). As we reported in January 2017, 
CBP data indicated that these programs identified and ultimately 
interdicted approximately 22,000 high-risk air travelers in fiscal year 
2015, the most recent data available at the time of our review. 
Information on individuals who the NTC identifies through traveler data 
matching or rules-based targeting, including recurrent vetting, is 
compiled automatically through ATS into a daily high-priority list (or, 
traveler referral list). CBP officers at the NTC review the traveler 
referral list for accuracy and to remove, if possible, any 
automatically generated matches determined to not be potential high-
risk individuals. After this review, CBP officers at the NTC use ATS to 
send the traveler referral list to officers at each Preclearance, IAP, 
JSP, and RCLG location, as shown in figure 4.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Preclearance.--Preclearance locations operate at foreign airports 
and serve as U.S. ports of entry. Preclearance operations began in 1952 
in Toronto to facilitate trade and travel between the United States and 
Canada. As of March 2018, CBP operated 15 air Preclearance locations in 
6 countries.\30\ Through the Preclearance program, uniformed CBP 
officers at a foreign airport exercise U.S. legal authorities to 
inspect travelers and luggage and make admissibility determinations 
prior to an individual boarding a plane to the United States.\31\ 
According to CBP officials, an inspection at a Preclearance location is 
the same inspection as an individual would undergo at a domestic port 
of entry, and officers conducting Preclearance inspections exercise the 
same authority as officers at domestic ports of entry to approve or 
deny admission into the United States.\32\ As a result, travelers 
arriving at domestic air ports of entry from Preclearance locations do 
not have to be re-inspected upon entry.\33\ According to CBP data, in 
fiscal year 2015, CBP officers at Preclearance locations determined 
that 10,648 air travelers were inadmissible out of the approximately 16 
million air travelers seeking admission to the United States through a 
Preclearance location. In addition to requiring that all travelers 
undergo a primary inspection, CBP officers in these locations also 
referred almost 290,000 individuals for secondary inspection.\34\
---------------------------------------------------------------------------
    \30\ See 19 C.F.R.  101.5. CBP's Preclearance location in 
Victoria, Canada, only processes maritime travelers and, as a result, 
we did not include it in our January 2017 report. See GAO-17-216.
    \31\ See 8 U.S.C.  1103(a)(7); 19 U.S.C.  1629. See also 8 C.F.R. 
 235.1, 235.5; 19 C.F.R.  148.22, 162.6, 162.8; and Preclearance 
Authorization Act of 2015, Pub. L. No. 114-125, tit. VIII, subtit. B,  
813, 130 Stat. 122, 217-18 (2016) (classified at 19 U.S.C.  4432) 
(subject to certain provisos, the Secretary of Homeland Security is 
authorized to establish and maintain CBP preclearance operations in a 
foreign country).
    \32\ Individuals denied admission to the United States at a 
Preclearance location are not permitted to proceed beyond the point of 
inspection and, thus, are unable to board a flight to the United 
States.
    \33\ According to CBP officials, in accordance with CBP's current 
preclearance agreements and processes, CBP officers retain the 
authority to inspect these travelers and their accompanying goods or 
baggage after arriving in the United States should further inspection 
be warranted.
    \34\ Primary inspection refers to the procedure that CBP uses to 
conduct an initial inspection of individuals seeking to enter the 
United States to determine if additional review or scrutiny is needed 
to ensure compliance with U.S. law. Persons who need additional 
scrutiny and persons selected as part of a random selection process are 
subjected to a more detailed review called a secondary inspection. This 
involves, for example, a closer inspection of travel documents and 
possessions, additional questioning by CBP officers, and cross 
references through multiple law enforcement databases to verify the 
traveler's identity, background, purpose for entering the country, and 
other appropriate information.
---------------------------------------------------------------------------
    Immigration Advisory Program (IAP) and Joint Security Program 
(JSP).--IAP and JSP operated at 9 and 2 foreign airports, respectively, 
as of January 2017. According to CBP officials, under this program, 
unarmed, plainclothes CBP officers posted at foreign airports partner 
with air carriers and host country government officials to help prevent 
terrorists and other high-risk individuals from boarding U.S.-bound 
flights by vetting and interviewing them before travel.\35\ According 
to CBP program documentation, CBP established IAP in 2004 to prevent 
terrorists, high-risk travelers, and improperly documented travelers 
from boarding airlines destined to the United States. Building on the 
IAP concept, CBP established JSP in 2009 to partner with host country 
law enforcement officials to identify high-risk travelers. CBP officers 
at IAP and JSP locations have the ability to question travelers and 
review their travel documents. They are to act in an advisory manner to 
the air carriers and host governments and do not have authority to deny 
boarding to individuals on U.S.-bound flights or fully inspect 
travelers or their belongings. IAP and JSP officers are authorized by 
CBP to make recommendations to airlines as to whether to board or deny 
boarding (known as a no-board recommendation) to selected travelers 
based on their likely admissibility status upon arrival to the United 
States. The final decision to board travelers, however, lies with the 
carriers. According to CBP data, CBP officers at IAP and JSP locations 
made 3,925 no-board recommendations in fiscal year 2015 for the 
approximately 29 million air travelers bound for the United States from 
such locations. During this same time period, CBP data indicated 1,154 
confirmed encounters with individuals in the TSDB, including 106 on the 
No-Fly List.\36\
---------------------------------------------------------------------------
    \35\ See 8 U.S.C.  1225a(b).
    \36\ A confirmed encounter refers to when a representative of the 
U.S. Government (in this case a CBP officer) comes into contact, either 
through physical interviewing or inspection or through electronic 
vetting, with an individual whose identity is confirmed as a match to a 
record in the TSDB. The No-Fly List is a subset of the TSDB that, in 
general, identifies individuals prohibited from boarding flights to, 
from, within, or overflying the United States.
---------------------------------------------------------------------------
    Regional Carrier Liaison Groups (RCLG).--RCLGs are located and 
operate at 3 domestic airports--Miami International Airport, John F. 
Kennedy International Airport, and Honolulu International Airport. CBP 
established RCLGs in 2006 to assist air carriers with questions 
regarding U.S. admissibility requirements and travel document 
authenticity. According to CBP officials, RCLGs are responsible for 
coordinating with air carriers on all actionable referrals from NTC on 
U.S.-bound travelers departing from an airport without an IAP, JSP, or 
Preclearance presence. Each RCLG is assigned responsibility for 
travelers departing out of a specific geographic location.\37\ Similar 
to IAP and JSP, CBP officers in RCLGs also make no-board 
recommendations, as appropriate, to air carriers. CBP officers at RCLGs 
do not have authority to make admissibility determinations about U.S.-
bound air travelers, and the final decision to board or not board a 
traveler lies with the carrier. We reported in January 2017 that CBP 
officers working at the 3 RCLGs made 7,664 no-board recommendations in 
fiscal year 2015 for the approximately 59 million travelers bound for 
the United States from locations within the RCLGs' spheres of 
responsibility. During this time period, CBP data indicated that RCLGs 
also reported 1,634 confirmed encounters with individuals in the TSDB, 
including 119 on the No-Fly List. In January 2017, we reported that CBP 
had not evaluated the effectiveness of its predeparture programs as a 
whole, including implementing a system of performance measures and 
baselines to assess whether the programs were achieving their stated 
goals.\38\ We reported that CBP had taken some initial steps to measure 
the performance of these programs. Specifically, CBP officials told us 
that they had collected a large quantity of data and statistics 
regarding the actions of their predeparture programs and had done so 
since program inception for all programs. However, due to changes in 
operational focus, technology updates, and the use of separate data 
systems at program locations, CBP had not collected consistent data 
across all of its predeparture programs. As a result, CBP did not have 
baseline data on which to measure program performance. Therefore, we 
recommended that CBP develop and implement a system of performance 
measures and baselines for each program to help ensure that these 
programs achieve their intended goals. In response, as of March 2018, 
CBP has developed 3 performance measures for its predeparture programs. 
On the basis of our review of CBP documentation, as of December 2018, 
CBP has collected the fiscal year 2018 data relevant to these measures, 
used those data to set preliminary targets for fiscal year 2019, and 
plans to analyze the fiscal year 2019 results and set targets for 
future fiscal years by October 31, 2019. We will review documentation 
of CBP's analysis of the fiscal year 2019 results and future targets, 
when available, to determine if CBP's actions address our 
recommendation.
---------------------------------------------------------------------------
    \37\ RCLGs are not responsible for travelers departing from 
Preclearance locations.
    \38\ GAO-17-216.
---------------------------------------------------------------------------
    Chairwoman Rice, Chairman Rose, Ranking Members Higgins and Walker, 
and Members of the subcommittees, this concludes my prepared statement. 
I would be pleased to respond to any questions that you may have at 
this time.

    Mr. Rose. Thank you.
    I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for the first questions.
    I want to begin, both of these are for both Mr. Conroy as 
well as Mr. Hawkins, and I want to focus in on the travel ban, 
specifically Executive Order 13780, also known as the Muslim 
ban. I want to get down to the core of this. Has it been worth 
it?
    Has it been worth it to alienate millions of people around 
the world to make certain Americans feel as if they are second-
class citizens simply as on the basis of their faith?
    According to the GAO, out of 2.8 million non-immigrant visa 
applications processed in fiscal year 2017, 1,338 individuals 
were refused entry into the United States because of the Muslim 
ban.
    So to begin first with Mr. Conroy, if the Muslim ban had 
not been in place, would any of those 1,300 or so individuals 
been refused on National security grounds?
    Mr. Conroy. Chairman Rose, in regards to the travel ban and 
the issuance of the non-immigrant visa, it is difficult for me 
to answer had those individuals not been issued a visa. The 
visa is issued by the Department of State and----
    Mr. Rose. No, but that is not, sir, what I am asking, 
though. It is that those 1,300 individuals went through our 
existing system, part of which you control. They passed 
everything. Then they were banned from getting a visa.
    So my question is, is that would any of them have been 
refused on National security grounds after having gone through 
the existing system? Would any of them have been?
    Mr. Conroy. I would be happy to follow up on those 1,300, 
but if an individual is going through the vetting and they are 
not issued the visa, their travel isn't going to be authorized 
because they don't have a valid travel document to----
    Mr. Rose. OK. So I understand that, that you don't want to 
deal with that one particular question. But let us actually 
look at these 1,300 again.
    Would they, after having gone through your system, can you 
tell me whether the National Targeting Center would have been 
able to identify any high-risk travelers among these 1,300 
before they entered the country? If you are just looking at 
that sample of 1,300 individuals, would you have been able to 
identify high-risk?
    Mr. Conroy. So again, Chairman, I can't speak to the actual 
1,300. But within our systems in Custom and Border Protection 
and the National Targeting Center at the issuance of the visa 
we are vetting that information against our holdings for any 
derogatory information that that applicant or that person has a 
visa may hit against.
    Upon reservation and check-in, we are also vetting that 
traveler again against our data and our holdings to see if any 
derogatory information exists that would preclude the 
admissibility.
    So if the person has the ability to travel with a document 
visa, has made reservations that could match against our 
systems and if derogatory information exists, we could action.
    Mr. Rose. So are you confident, and this goes for Mr. 
Conroy and Mr. Hawkins, are you confident in the existing 
system?
    Mr. Conroy. Yes. As CBP we are always continuing to re-
evaluate our systems. I think at the NTC----
    Mr. Rose. But you are confident, and Mr. Hawkins, I would 
like for you to answer this, as well, you are confident that 
when someone passes through all of your different vetting 
systems you are confident that they do not represent a threat 
to this country?
    Mr. Hawkins. As the latest layer in the process, yes, I am 
confident the NVC provides to the----
    Mr. Rose. So then I will ask you this question again. Those 
1,300 individuals passed through your system. Then they were 
denied entry to this country based off the travel ban. So you 
have two options here. I understand that we don't want to 
entertain hypotheticals.
    This is not a hypothetical. They passed through your 
system. You just said that you are confident in your system. 
Then they were denied entry into this country. So my question 
to you is very simple. Those 1,300 individuals, do they or do 
they not represent a threat to this country?
    Mr. Conroy first.
    Mr. Conroy. Again, Chairman, without knowing who those 
individuals are and individually seeing the information to run 
against it, it is difficult for me to answer the question.
    Mr. Rose. You know who those individuals are. They went 
through your system. You know who they are. This is not a 
hypothetical.
    Mr. Conroy. But Chairman, if they don't have a visa to 
travel I can't authorize travel unless they have the 
appropriate documents to board a flight to travel to the United 
States to be processed at a port of entry.
    Mr. Rose. OK.
    So, Mr. Hawkins.
    Mr. Hawkins. Mr. Chairman, the NVC right now was only 
looking at ESTA travelers. Having only stood up in December, I 
can't specify----
    Mr. Rose. Of course.
    Mr. Hawkins. The 1,300. So----
    Mr. Rose. No. Of course, I understand that.
    So, Mr. Conroy, I want to close out with this. Thirteen 
hundred individuals, were they or were they not approved? Or 
did they or did they not trigger off anything before getting to 
the Muslim ban?
    Mr. Conroy. Chairman, it is hard for me to answer that 
question without knowing----
    Mr. Rose. Well, I can answer for that. Then I will close up 
my questionings.
    They didn't, otherwise they would have been refused entry 
on another ground. So they didn't. They checked all the boxes. 
They went through a system that you just told me that you were 
confident in.
    You just said you are confident in our system. They checked 
all the boxes, and then they were denied entry based off the 
Nation that they are coming from.
    So I urge you, and please, we will follow up with a written 
question here. I really, truly want to know, and you can go 
back and look at those 1,300 cases, whether or not you have 
confidence in your system or whether we need to improve upon 
our system in order to further vet those 1,300 individuals. 
Thank you.
    With that, I now recognize the Ranking Member of 
Intelligence and Counterterrorism Subcommittee, the gentleman 
from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Director Hawkins, the goal of the National Vetting Center 
is to maximize the vetting potential to be robust in near real-
time links between the DHS and the intelligence community. So 
what are the primary challenges to establishing the National 
Vetting Center, is where I would like to start.
    Director Hawkins.
    Mr. Hawkins. Sir, thank you. Some of our challenges are 
with the sensitivities of some of the information we are trying 
to access and ensuring that the adjudicators receive that in 
near-real time to inform their adjudications.
    So it is working through all the sensitivities, the 
protections, and so forth to make sure that the process is 
trustworthy.
    Mr. Walker. Do you have all the sufficient authority to 
ensure that all the key players across the DHS and the 
intelligence community are fully participating in the NVC?
    Mr. Hawkins. We do today, yes, sir.
    Mr. Walker. Good. How long do you think before the National 
Vetting Center will be mature enough to incorporate data sets 
related to transnational criminal organizations?
    Mr. Hawkins. Oh, we are looking at expanding beyond 
counterterrorism information, which is the primary focus today. 
Our sister, NSPM and NSPM-7, which was approved in the fall 
before ours, is looking at 5 different threat actor 
categories----
    Mr. Walker. Yes.
    Mr. Hawkins. Transnational organized crime being one of 
those, which is a primary focus. I can't speak to exact time 
lines, but it is certainly high on our radar of incorporating 
that type of data into our process.
    Mr. Walker. Thank you for those responses.
    Ms. Gambler, thank you for being here today. Approximately 
40,000 individuals across the world traveled to Iraq and Syria 
to join ISIS, with several thousand coming from European 
countries.
    Around 2017, as ISIS began to lose some of the territory, a 
large number began to leave the region, creating a new 
challenge of detecting the potential return of foreign 
fighters.
    So my question to you is what changes have been made to our 
vetting system to address concerns about foreign fighters, 
particularly those with the VWP eligibilities, potentially 
seeking to travel to the United States?
    Ms. Gambler. Thank you, Ranking Member Walker.
    One of the key changes that has been made to the Visa 
Waiver Program over time with regard to countries' 
participation in that program is that countries are required to 
enter into and share information with the United States through 
3 different types of agreements that includes sharing 
information on lost and stolen passports, sharing information 
on known criminal history and other things.
    One of the key changes has been the requirement for those 
information-sharing agreements to be implemented.
    Mr. Walker. OK. Thank you.
    Mr. Conroy, how are your agencies combating the threat from 
Westerners who may have spent time in Iraq and Syria or 
otherwise who subscribe to Jihadi ideologies, but have 
completely legitimate documents that may have not been flagged 
in our watch list?
    Mr. Conroy. Chairman Walker, in regards to the travel since 
they battled ISIS, we at CBP have been looking at that threat, 
adjusting our target rules, looking at outbound travel, as well 
as identifying those unknowns that are trying to come into the 
United States as well.
    Our systems within the recurrent vetting of the visa hot 
list, as well as the ESTA hot list we are constantly looking at 
information that may pose or identify those that pose a risk.
    In addition to that, with a collection of biometrics of 
individuals, we rework at partnerships in our international 
partners and our interagency and Government partners to make 
sure that we are trying to share information as much as 
possible to identify those that are known but that are unknown 
through our capabilities. We also participate in various 
foreign fighter task forces as well.
    Mr. Walker. OK. Thank you.
    This is a terror travel hearing. By no means am I making 
the case that that is what is happening at the Southern Border, 
that we have mass groups of terrorists coming across the 
Southern Border, but Mr. Hawkins, I would like to ask you a 
question there.
    Do you agree with our former DHS Secretary Johnson, as well 
as current DHS Secretary Kirstjen Nielsen, that there is a 
crisis at the border?
    Mr. Hawkins. Sir, I can only speak to the programs, the 
vetting programs we are involved in today, which is ESTA. The 
National Vetting Governance Board will determine where we focus 
in the future, and they will determine if it is a focus of high 
priority for us to fold in.
    Mr. Walker. Is it possible for you to vet someone that we 
do not know about that is crossing our borders?
    Mr. Hawkins. For us, no.
    Mr. Walker. OK.
    Ms. Gambler, a major lesson from 9/11 was the importance of 
interagency intelligence sharing. While we had derogatory 
information on some of the attackers, it did not make it into 
the hands of those who have prevented their entry into the 
United States.
    How confident are you that the changes that have been made 
are sufficient to prevent any known or suspected terrorists 
from gaining entry into the United States?
    Ms. Gambler. Thank you, Ranking Member Walker. Over time, 
the U.S. Government has made changes to its screening and 
vetting programs to strengthen the programs and to strengthen 
the security and effectiveness of those programs.
    One point that I would add, though, is that through our 
work looking at some of these different programs that are part 
of the travel life-cycle process, we have identified the need 
for the Department of Homeland Security to establish 
performance measures to be able to assess the effectiveness of 
those programs.
    In my opening remarks, I mentioned an open recommendation 
we have to CBP, related to them establishing performance 
measures for some of the pre-departure programs.
    Another program that we have looked at is ICE's Visa 
Security Program. We also have an open recommendation there for 
ICE to establish outcome-based performance measures for that 
program.
    Mr. Watkins. Thank you, Mr. Chairman. I yield back.
    Mr. Rose. Thank you.
    I now recognize the Chairwoman of the Border Security, 
Facilitation, and Operations Subcommittee, the gentlewoman from 
New York, Miss Rice, for questions.
    Miss Rice. Thank you, Mr. Chairman.
    This question I am going to put to Mr. Conroy and to Mr. 
Hawkins. Let me just state the obvious. No one wants to allow 
terrorists or anyone who wishes to harm America into the United 
States. I think everyone agrees with that sentiment.
    But I think that we also have to take this in the context 
of, you know, a potential, complete Southern Border shutdown 
and whether that will actually make us safer and kind-of also 
talk about the economic impact that that is going to have as 
well.
    I think it is important that we remain as a country with a 
welcoming message to the international community, and travelers 
who do not wish to harm us but just want to come here to visit 
the United States.
    So my question is, how do your agencies balance the need 
for stringent security with the economic impacts that make the 
travel and tourism industry our second-largest export, 
producing $251 billion in export income in 2017?
    Again, this is not just about money. I am not taking away 
the overriding concern of security to our homeland, but it 
comes with ancillary effects. So that would be my first 
question.
    Are there existing programs that help you allocate your 
resources to address threats while also providing opportunities 
to those travelers we know to be low-risk and making it not so 
cumbersome and burdensome for them to come here?
    Mr. Conroy. Chairwoman Rice, so travel and facilitation is 
a challenge and we recognize the economic security, as well as 
we try to protect our Nation from those that come to do harm, 
National security, other criminal mala fide elements.
    Our travel is up 10 percent this year, and in the air 
environment is up 22 percent. We take our targeting and our 
capabilities to identify those risks important to the Nation 
and try to facilitate those that pose the risk to make sure 
that they are either not boarding or they are examined or other 
travelers that don't pose a risk are facilitated through the 
process.
    We also take opportunities within our system is, we call it 
primary lookout overrides so when a traveler is a negative 
match to our derog we are able to remove that individual from 
hitting our systems in the future so we don't inhibit that 
travel or delay their travel in the future. We don't have our 
analysts looking at individuals that we have already previously 
vetted.
    We try to build as many efficiencies into our targeting 
capabilities to mitigate risk and threat while at the same time 
facilitating those that don't pose a risk to this Nation.
    Mr. Hawkins. Madam Chairwoman, while we are looking at 
individualized risk determinations on all the travelers, at the 
end of the day, we are trying to do it in the most efficient 
and effective way possible to support Director Conroy's vetting 
of ESTA travelers to not delay innocent travelers as much as 
possible. So we are doing as much as we can to bring speed to 
that process.
    Miss Rice. Mr. Conroy, had the NTC ever have a pilot 
program involving social media?
    Mr. Conroy. So we use social media in a limited basis, the 
publicly-available information, to identify and assist us in 
our targeting efforts. We don't use it as the sole decision, 
but we utilize it to help us as we adjudicate ESTA applications 
or travel information to see if the individual poses any other 
further risk.
    Miss Rice. So you access social media per individual? You 
don't just do it in a scatter-shot way? It is an incorporated 
part of the background checks that you do on people?
    Mr. Conroy. It is part of our process when we look at in 
facilitation and then looking at the individual. If an 
individual poses a risk and we are doing additional analysis on 
that traveler who may pose a risk or an inadmissibility or a 
threat, we utilize publicly-available information to assist us 
in our determinations.
    Miss Rice. So it is only after you have made a somewhat 
positive finding that might be someone that you don't want to 
let in? That you then access social media, or maybe I am not 
understanding it correctly?
    Mr. Conroy. So generally when we have an individual that is 
hitting to one of our hot lists, first thing we have to do or 
determine is if the person is a match to the information that 
is being presented, the derogatory information.
    Once we determine that the person is a match to the 
derogatory information, is it sufficient to preclude 
admissibility and take an action to deny travel, deny the 
benefit, such as an ESTA? Or to be allowed travel?
    Sometimes we use the publicly-available information to help 
assist us in identifying if the person poses a threat, the 
information they are providing is accurate. In some cases we 
find information that shows the individual maybe has nefarious 
intentions that helps us make a decision.
    Miss Rice. Well, all right, yes, I mean, that is the way 
the future people post things on social media. We saw that in 
that last New Zealand horror that happened. I mean, that was 
all out there. So I think it is obviously something that should 
be incorporated in.
    Ms. Gambler testified, well, in a 2017 report the GAO 
recommended that CBP should develop and implement a system to 
measure the performance of CBP's pre-departure programs. Was 
this done?
    Ms. Gambler. I can give a status update to that, if that is 
OK, Chairwoman Rice?
    Miss Rice. Great.
    Ms. Gambler. CBP has been making progress on implementing 
that recommendation. They have told us that they have 
established performance measures and have been collecting data. 
They are working to continue to do that into fiscal year 2019. 
We are going to continue to monitor their progress, but the 
recommendation still remains open.
    Miss Rice. So did you give them the specific three things 
that you wanted them to do? Or did you just say come up with a 
system?
    Ms. Gambler. We recommended that they come up with a system 
of performance measures. We did not specify or prescribe what 
those measures should be.
    Miss Rice. Are you at liberty to talk about what they are 
preliminarily?
    Ms. Gambler. I think we can follow up with you after the 
hearing and get you that information, Chairwoman Rice.
    Miss Rice. Great. Thank you, very much.
    I yield back.
    Mr. Rose. Thank you, Chairwoman.
    I now recognize the Ranking Member of the Border Security, 
Facilitation, and Operations Subcommittee, the gentleman from 
Louisiana, Mr. Higgins, for questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Conroy, under the Visa Waiver Program, nationals of 38 
designated countries allowed to travel to the United States for 
business or tourism for up to 90 days. What types of 
protections do we have in place to ensure Visa Waiver 
individuals are not traveling with fraudulent documents?
    Mr. Conroy. Mr. Higgins, the ESTA program, which is 
overseen by Customs and Border Protection in those 38 countries 
you identified, last year we processed over 15 million 
applications.
    As part of that we denied over 130,000 applications. We 
look at the information that is available and presented to us 
within the application. It is not just the biographic 
information.
    The biometric information, as well as the information 
provided in the application to ensure that whoever is vetting 
the application to see if that individual that is applying 
poses any threat.
    We utilize that information. Then in addition to that, when 
the individual is in travel, if we have previous information 
that the person is into the United States, we are able to 
validate their biometrics prior to arrival to see if there is 
any new information in those biometrics that may show an 
encounter----
    Mr. Higgins. Specifically regarding fraudulent documents, 
in your professional opinion, are you finding them to be 
increasingly sophisticated when they are encountered?
    Mr. Conroy. The sophistication of the documents is always a 
challenge. Within CBP we have a fraud document analysis group 
where we have officers that are fraud document specialists and 
subject-matter experts.
    Mr. Higgins. That group intercepted what was the number for 
fraudulent documents?
    Mr. Conroy. Last year they accepted over 40 million 
documents and nearly half of those were travel documents.
    Mr. Higgins. Of that number what was determined to be 
fraudulent?
    Mr. Conroy. I don't know the exact number. I could get that 
back to you.
    Mr. Higgins. If you would get that, and we would appreciate 
that. There was a 60 Minutes investigation that aired in 
December effectively saying that the country of Malta is 
allowing Russian, Chinese, Saudi, and Nigerian citizens to buy 
Malta citizenship along with the associated European Union 
passport.
    What safeguards do we have in place to mitigate any risks 
associated with the Visa Waiver country citizenship programs 
being abused, like the one in Malta, allegedly?
    Mr. Conroy. So as part of the Visa Waiver Program, there is 
an overview from the Department of Homeland Security that we do 
the country assessments. In addition to it, we rely heavily on 
our foreign partnerships to ensure that information is being 
presented or shared with us that poses those threats, or if 
there is fraud or indications of documents being misused.
    Mr. Higgins. Is there a process by which a bad actor 
nation-state that was allowing abuse of that system to be 
removed from the list?
    Mr. Conroy. I am not aware of that.
    Mr. Higgins. Well, there should be.
    Mr. Conroy, you mentioned in your testimony that Customs 
and Border Protection works to identify risks as early as 
possible in the travel continuum. It is well-stated. I have 
long supported CVP programs to effectively push out our borders 
to ensure that nefarious actors don't step foot on U.S. soil.
    Can you speak to some of these programs that CVP operates, 
such as the PreClearance and Immigration Advisory Program and 
why they are important?
    Mr. Conroy. Absolutely. So when we look at our travel 
continuum, we take the first opportunity of information that is 
available to Customs and Border Protection. At the NTC that is 
the application stage. So as individuals are applying for their 
ESTA, we are vetting that information against U.S. Government 
holdings, to see if anything would prevent derogatory 
information.
    In addition, under the Visa Security Program with 
Immigration and Customs Enforcement, we work with them in 
partnership with the Department of State looking at visa 
applications at the application stage at 37 locations to 
identify those that may pose a threat when applying for a visa.
    In addition to that, we look at the travel information as 
an individual begins their travel. As the information from the 
application, now to the travel reservation, that we are 
matching against our holdings.
    We have PreClearance locations in 6 countries. We have 
Immigration Advisory Programs at 12 airports in 10 countries.
    Mr. Higgins. Thank you for clarifying that. It is a program 
we will continue to support.
    Quickly, Ms. Gambler, in your testimony you mentioned that 
the December 2015 shootings in San Bernardino, California, led 
to concerns about non-immigrant visa screening and vetting 
process.
    Do you think the admittance of Tashfeen Malik on a non-
immigrant visa was a result in a gap in our vetting process? 
Specifically how do you think social media vetting, if 
enhanced, would have perhaps stopped that entrance?
    Ms. Gambler. Chairman Higgins, unfortunately, that is not 
something that we have looked at as part of our audit work. So 
I can't really speak to it.
    But as I mentioned, there have been changes over time that 
the Federal Government has made to strengthen some of the 
different programs that are part of this process we are 
discussing today.
    Mr. Higgins. Thank you for your candid answer.
    Chairman, I yield back.
    Mr. Rose. Thank you, Ranking Member Higgins.
    I now recognize the Chairman of the full committee, the 
gentleman from Mississippi, Mr. Thompson, for questions.
    Mr. Thompson. Thank you, Chairman Rose.
    Let me welcome the witnesses to the committee.
    Mr. Conroy, good seeing you in a new role. I remember you 
when you were in Detroit right after 2009 Christmas day 
incident.
    Mr. Hawkins, you responded to Mr. Walker's question that 
you had everything you needed at the National Vetting Center. 
Kind-of tell me what kind of resources you have at the vetting 
center?
    Mr. Hawkins. In terms of our staff, sir?
    Mr. Thompson. Yes.
    Mr. Hawkins. We have a fairly small staff of core NVC 
leadership team of about 15 folks, including Government staff 
and contractors.
    We also have and as per the NSPM, we have the on-site 
intelligence community support element, led by the director of 
national intelligence. Then we incorporate analysts from the 
vetting partners in our system.
    So as ESTA being our first process, we have analysts from 
CBP's ESTA program from NTC who sit with us and leverage our 
process to support the ESTA vetting program.
    Mr. Thompson. So how many full-time people do you 
supervise?
    Mr. Hawkins. In terms of staffing at the NVC, I am the only 
CBP employee. The other Government employees who are there now 
are currently on detail from other parts of DHS. So I supervise 
them in terms of NVC activities, but they still report back to 
their home components.
    Mr. Thompson. So you don't supervise anybody?
    Mr. Hawkins. Well, I have two deputies per the NSPM, one 
from FBI and one from State Department who work for me. Then my 
team of a privacy officer, a lead counselor, a tech director, 
and a chief of staff.
    Mr. Thompson. So I am going to ask Mr. Walker's question 
again.
    Mr. Hawkins. Sure.
    Mr. Thompson. Do you have everything you need?
    Mr. Hawkins. We aim to be a lean organization. So in terms 
of our staff, I believe I have today. I think as potentially we 
grow down the road that might change.
    But as what we are doing today, and there will certainly be 
requests down the road, but as of today, we are OK in terms of 
our staffing.
    Mr. Thompson. So if I asked you what did you achieve since 
you were established in 2018, what could you tell me?
    Mr. Hawkins. Sure. So we have developed a whole technical 
architecture, which we are happy to brief you on in a 
Classified setting, because it involves some of our I.C. 
partners.
    Also, we have folded into the NTC's vetting of ESTA 
travelers, in support of their identification of several 
hundred travelers of concern, to support their vetting 
decisions.
    Mr. Thompson. Mr. Chair, I would love to, at least, in a 
non-Classified setting, can you provide us that written report 
of all the good things you have said here today that you are 
doing?
    Mr. Hawkins. Definitely.
    Mr. Thompson. Ms. Gambler, several Members have talked 
about the gaps that still remain. Do you think CBP has accepted 
your review and fully committed to closing those gaps?
    Ms. Gambler. Thank you, Chairman Thompson. Yes, CBP has 
concurred with the recommendations that we have made with 
regard to these programs. DHS has, more generally, has 
committed to recommendations we have made in the space. I 
mentioned our work on the Visa Security Program, for example. 
DHS and ICE have concurred with those recommendations.
    I would add that the Department and the components are 
making progress toward implementing our recommendations.
    Mr. Thompson. So again, Mr. Conroy, with respect to what 
happened in Detroit in 2009, can you bring us fast-forward to 
some of the things we are doing now so that that might not 
occur again, in terms of the travel to this country?
    Mr. Conroy. Mr. Chairman, so as a result of the 2009 
underwear bomber, our pre-departure program is one of those 
where we have the Immigration Advisory Programs.
    Then we started looking at denying boarding of individuals 
shortly after the event, the change in our relationship with 
our regional carrier liaison groups to where we could push out 
recommendations to airlines to deny boarding of travelers.
    Shortly after that, we also created the visa hot list. We 
are working with the Department of State where recurrent 
vetting information on already-issued visas to ensure that new 
information is presented that we can match against that 
information, make recommendations to Department of State to 
revoke that visa and then deny the travel of that individual as 
well.
    We are very self-critical of our operation at the National 
Targeting Center and we are always looking to improve our 
processes in our vetting and in our partnerships. We look at it 
from the four pillars of authorities, our data, our 
competencies, and our partnerships.
    Then within those areas we look at our partners to see if 
we can either benefit from their competencies, their data or 
their authorities or their information, as well as providing 
some of our capabilities and our information to mitigate the 
future threats. It is a constantly-evolving process that we are 
always looking to improve.
    Mr. Thompson. But your testimony is that since that 
incident we have expanded and enhanced a number of processes 
that we take for people coming to this country?
    Mr. Conroy. That is correct.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chair.
    Mr. Rose. Chairman, thank you.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules, I will recognize Members who were present at 
the start of the hearing based on seniority on the committee, 
alternating between Majority and Minority. Those Members coming 
in later will be recognized in the order of their arrival.
    The Chair recognizes for 5 minutes the gentlewoman from 
Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair, and thank you for letting 
me ask questions first.
    I have two questions. Just going to ask it to whoever 
thinks can answer it the best. The first question is how much 
do you use biometrics, and how do you use it? Do we need to 
expand the use of it?
    The second question is the flood of caravans and people 
coming over and to the Southern Border, how is that affecting 
the vetting process?
    Mr. Conroy. So, Congresswoman Lesko, from the biometrics 
perspective, every traveler that is a non-U.S. citizen is 
biometrically processed at our ports of entry. That is upon 
arrival.
    In addition to that, we work with our partners in the 
vetting process when individuals are applying for various 
status. In non-immigrant visas, for example, when biometrics 
are run that we provide support to our interagency partners and 
adjudicate those biometrics that may hit the derogatory 
information.
    In addition to that, we utilize the biometrics on 
individuals when they are in travel to match that biometric 
against the biographic to see if there is new information on 
that biometric that may pose a risk that is not biographically 
available as well.
    We have expanded the biometrics from the facial, the 
biometric entry and exit, as you may be aware it helps the 
facilitation and the validation of individuals and their 
identities to their biographic information, anything we may 
have in our holdings and this expansion as we go forward.
    It is always the collection of biometrics and not just 
biographics that we want to match against to identify those 
threats.
    In regards to the caravan, we continue to support the 
officers and agents in the field with our capabilities. Last 
year we processed over 20,000 calls at the National Targeting 
Center for assistance.
    If it is from our Southern Border, if it is from our 
foreign partners or other agencies that are asking us to 
provide assistance in running and identifying some of the 
individuals that are encountered along the Southern Border. 
That information is hitting against that.
    The officers and agencies there can reach back to the 
National Targeting Center and we will provide any services that 
we can within the capabilities and the tools that we have 
available to support them.
    Mrs. Lesko. Thank you, Mr. Chair.
    Either you, sir, or someone else, has the flood of people 
crossing the border affected that process? I mean, we have been 
told by Secretary Nielsen and others that, you know, I believe 
we are at a total crisis on the Southern Border and, you know, 
Border Patrol agents are having to take people to hospitals 
and, you know, diverting them from their jobs and, you know, 
doing all types of things.
    So I was wondering if there is, you know, what you have 
seen as far as this? I am just concerned that with all of this 
going on that we may be missing some terrorists that are coming 
over our Southern Border. Has there been an ill effect?
    Mr. Conroy. So there are challenges with that, and I would 
offer to have a team to come and brief you specifically on just 
those challenges that we are dealing with the border. It is an 
unprecedented event and it has some challenges. I think we see 
some of the challenges now today.
    From the National Targeting Center, though, to step it back 
to our global outreach and extending our borders, we take a 
hemispheric approach within the Western Hemisphere and working 
with our key allies in the Western Hemisphere if it is through 
partnerships, if it is through capabilities and information 
sharing, to extend our capabilities with our partners in the 
Western Hemisphere to target those threats that may pose a 
threat to the whole hemisphere and denying those that pose a 
threat of National security or other criminal activity from 
getting into the country that ended up into our southern 
borders where we don't want to be the first line of defense.
    We want our borders to be the last line of defense and work 
with our international partners. We are doing a good job, I 
believe, at mitigating that threat as best as possible.
    Mrs. Lesko. Thank you.
    I yield back.
    Mr. Rose. Thank you.
    The Chair recognizes for 5 minutes the gentlewoman from 
Michigan, Ms. Slotkin.
    Ms. Slotkin. Thank you. Sorry to be late, apologies. I 
apologize if some of this has been covered, but I guess I would 
ask this. So I am from Michigan so we have three border 
crossings. The Government has made some major changes, 
obviously, since 9/11.
    The threats have evolved and we have reshaped how the 
Government approaches immigration and travel. Can you help me 
understand where some of the improvements have been and then 
some of the gaps that you still feel like you have?
    Mr. Conroy. So within the National Targeting Center, ma'am, 
we are always looking for improvements in our capabilities, if 
it is technology, if it is through additional data or it is 
through partnerships of sharing in our capabilities.
    We are continually looking at the threat to see as it 
evolves and then transitions that we are trying to stay ahead 
or identifying those threats as they may move if it is from 
Northern Border, Southern Border or within our air 
environments.
    Ms. Slotkin. So just help me out with some gaps. There has 
got to be some things that you are working on where, you know, 
you try to get ahead of something, a future threat, a different 
kind of threat. Help us understand it can't be all great. Help 
me understand some of the things you are still working on.
    Mr. Conroy. We are working within our partnerships, our 
international partners and our interagency government partners 
is identifying those gaps as to transitions.
    It really comes down to our partnerships within the intel 
community, the investigative agencies, State and local and our 
foreign partners and the information sharing that we provide 
and that they provide to help us adjust to those gaps that 
maybe start to present themselves and mitigate them as 
possible.
    I can't really talk to any specific gaps that I am seeing 
right now in what we are doing in our efforts to prevent 
terrorist travel and individuals getting on flights to come 
into the United States.
    Ms. Slotkin. OK. I would just offer, as a former CIA 
officer, that any time you say I have no risks or gaps, it is 
sort-of a tell that you aren't looking hard enough or you are 
not thinking creatively about future threats.
    If you can't say it because it is Classified that is a 
different answer than you have no worries, but I wouldn't 
personally want to be on record as saying I have no worries 
with the way the threats evolve.
    Sorry, I am just making sure. Tell me about the Visa Waiver 
Program. So while foreign nationals from most countries get a 
visa to come to the United States, others come through the Visa 
Waiver Program.
    What are we doing to improve the Visa Waiver Program? Just 
walk me through where you think it stands and what you are 
doing to improve it.
    Mr. Conroy. So I, as you may be aware, there are 38 
countries that participate in the Visa Waiver Program, when an 
individual of those countries applies for the visa waiver in 
ESTA, the Electronic System for Travel Authorization.
    We run it through our data for any kind of derogatory 
informations and we take the biographic and the biometric, as 
well as the additional application information to run against 
our holdings.
    We are continually looking at the improvements as to how do 
we take that data and run it against additional holdings, such 
as the National Vetting Center and bringing in partners that 
help us be more effective in looking at those threats? It may 
be against information that we don't have access to but that 
other partners do that can share it back to us.
    Ms. Slotkin. OK. Then one of the things that, and as much 
as you are able to say in an unclassified setting, just how you 
have seen since 9/11 foreign fighter travel change and evolve?
    What are things that you are looking at differently now? 
Help us understand how you have evolved to the new threats, 
what you have been doing to adapt and what you are seeing on 
the ground?
    Mr. Conroy. So as we identify the threat we also start 
transitioning our threshold targeting capabilities looking at 
individuals that are traveling out of the country that may be 
going to conflict areas and identifying those travelers as 
well.
    We have adjusted our threshold targeting to identify 
unknowns and travelers that may be trying to come back to the 
United States or travel through other routes into the country.
    In addition, our targeting threshold against our visa, 
already-issued visas, as well as the ESTA applications that 
identify any new information, participating in numerous foreign 
fighter task force.
    Our biggest relationship is with our foreign partnerships, 
is really identifying those relationships to ensure that we are 
sharing terrorist identify information of these individuals to 
ensure that they don't pose a risk and that we can identify 
them if they should attempt to travel to the United States.
    Ms. Slotkin. Thank you.
    I yield back my time.
    Mr. Rose. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    To our witnesses I want to thank you and thank your 
agencies for what you do each and every day to keep our 
communities safe.
    In preparing for today's hearing some information was 
provided to Members of the committee, and I just want to ask 
your opinion if this information sounds correct. It says on 
average that the Department of Homeland Security stops ``10 
known or suspected terrorists attempting to travel to the 
United States.'' Does that sound like an accurate figure?
    Mr. Conroy. Yes, it does.
    Mr. Guest. Then the information goes on and it says, 
``Furthermore, more than 40,000 individuals from over 120 
countries travel to Iraq and Syria to join terrorist groups.'' 
Again, that 40,000 number, does that figure seem to be accurate 
to you?
    Mr. Conroy. The exact number I don't know the accuracy, but 
I know that there is concerns regarding the volume of foreign 
fighters.
    Mr. Guest. I know you talked just a minute ago, Mr. Conroy, 
about information sharing, but do we currently have in place a 
vetting program to identify those that are traveling abroad 
that would either seek to join a terrorist group or seek to 
provide material assistance to a terrorist group?
    Mr. Conroy. So from the United States' perspective at the 
National Targeting Center, we do target travelers that are 
departing the United States into foreign locations. We don't 
necessarily have the information on foreign travel and 
targeting.
    That is where our partnerships come in and our abilities to 
share information and provide our partner agencies that maybe 
are countries that don't have the capabilities to help target 
against those threats that are traveling through their 
countries.
    Mr. Guest. One more piece of information contained in the 
briefing says that ``the CBP is responsible for vetting 
individuals and cargo before they enter the United States at 
any one of the 328 U.S. ports of entry.'' That is part of CBP's 
responsibility. Is that correct?
    Mr. Conroy. So with the CBP and the National Targeting 
Center we vet information from advanced travel. Unfortunately, 
like on our Southern Border and our Northern Border, we don't 
get advanced travel information to target against those 
individuals.
    Mr. Guest. Well, and that was going to be my next question, 
is how do we properly vet individuals that are not entering our 
country through ports of entry along our unsecured portion of 
our Southwest Border?
    Read reports, news reports that over 90,000 people or 
estimates of 90,000 people will have entered the country just 
last month across the unsecured portion of our border. Those 
are the individuals that we have captured. How do we vet people 
who are not entering our country through ports of entry? Is it 
impossible?
    Mr. Conroy. Unless the identity information is provided to 
us to the National Targeting Center, it is hard for us to vet 
against an individual we don't know about.
    Mr. Guest. Then I want to follow up with one additional 
line of questioning. There was some questions earlier about 
1,300-some-odd individuals who had been denied entry into the 
United States that had been previously granted a visa. I guess 
my question is, is after an individual has been granted a visa 
does that end the vetting process at that point?
    Mr. Conroy. No, it doesn't. Once an individual's visa has 
been issued we still are running it through our visa hot list 
of recurrent vetting to----
    Mr. Guest. And is----
    Mr. Conroy. If new information becomes available it will 
hit to our system so we can match the derogatory information 
that may not have been available at the time of application to 
see if it re-raises to a level of inadmissibility or national 
security.
    Mr. Guest. So the issuing of the visa is just one step in 
the vetting process?
    Mr. Conroy. That is correct.
    Mr. Guest. I believe there was testimony or maybe I read in 
the documents preparing for today's hearing that vetting 
continues before an individual is allowed to board a plane. Is 
that correct?
    Mr. Conroy. That is correct.
    Mr. Guest. That vetting continues even as the individuals 
have boarded the plan and are en route to the United States. Is 
that correct?
    Mr. Conroy. That is correct.
    Mr. Guest. So an individual that has been granted a visa, 
that does not mean that that individual is automatically going 
to be allowed to travel to our country. There may be 
information received that your agency has that would prevent 
someone with a valid visa from being able to travel if they 
were a known or suspected terrorist. Is that correct?
    Mr. Conroy. That is correct.
    Mr. Guest. Thank you.
    I yield back.
    Mr. Rose. Thank you. I just have one further question. Then 
I think further pending any other Members here with any further 
questions we will wrap this up.
    On March 6, Secretary Nielsen came to testify before this 
entire committee and she spoke to the fact that the Department 
makes decisions based off a model.
    The opiates streaming across the border, Fentanyl in 
particular coming through ports of entry also, as she claims, 
through the Southern Border, that the people are allocating 
personnel based off this model, allocating resources based off 
this model.
    She also said that they look to this model to determine how 
to allocate resources in regards to the threat of terrorist 
travel, again, over the entirety of the Southern Border, ports 
of entry, airports. Over and over and over again we heard about 
this model.
    When I asked her for additional information on this model 
that the DHS uses, she informed me that she would love to come 
and share details with me and the rest of the committee 
regarding the model.
    So my question is do you know which model or models she 
referred to in her testimony? I refer specifically to Mr. 
Conroy and Mr. Hawkins.
    Mr. Conroy. Chairman Rose, I do not know those models. I am 
more than happy to follow back with our agency to see what we 
can get for you as far as that.
    Mr. Rose. OK.
    Mr. Hawkins. Sir, same here. I am not aware of those.
    Mr. Rose. Do you know of anyone that has used this model? 
Have you seen or heard of anyone referencing this model in 
terms of your daily work lives?
    Again, Mr. Conroy.
    Mr. Conroy. In regards to a specific model I can't mention 
that, but I know there are efforts from all threats if it is 
from narcotics, for National security, that within the National 
Targeting Center and CBP that we are working with the 
Department to address those threats.
    Mr. Rose. Sure. Sure.
    Mr. Hawkins.
    Mr. Hawkins. I am not aware, sir. I am sorry.
    Mr. Rose. So suffice it to say that if this model does 
exist neither of you were consulted in terms of the development 
of this model?
    Is that correct, Mr. Conroy?
    Mr. Conroy. The National Targeting Center for Passenger 
looking at the National security threats in some of the topics, 
as you had mentioned, I don't think I would have necessarily 
been involved in those conversations. But not to say that there 
wasn't conversations at the National Targeting Center within 
other divisions.
    Mr. Rose. OK, thank you.
    Mr. Hawkins.
    Mr. Hawkins. Same here, sir.
    Mr. Rose. OK. Thank you so much.
    With that, I thank the witnesses for their valuable 
testimony and the Members for their questions. Members of the 
committee may have additional questions for the witnesses and 
we ask that you respond expeditiously in writing to these 
questions.
    Pursuant to Committee Rule VII(D), the hearing record will 
be held open for 10 days.
    Again, I would just like to reiterate from both the 
Republicans and Democrats and mention this, thank you for your 
service to this country.
    Without objection, this subcommittee stands adjourned.
    [Whereupon, at 11:21 a.m., the subcommittees were 
adjourned.]



                            A P P E N D I X

                              ----------                              

           Questions From Chairman Max Rose for Donald Conroy
    Question 1. According to GAO, out of the 2.8 million non-immigrant 
visa applications refused in fiscal year 2017, 1,338 applications were 
refused because of the Muslim Ban, or Executive Order 13780. If the 
Muslim Ban had not been in place, would any of these 1,338 individuals 
have been refused on National security grounds?
    Answer. Response was not received at the time of publication.
    Question 2. On March 6, Secretary Nielsen testified before this 
committee, saying DHS has ``surge models throughout the Department, 
whether it is FEMA, whether it is TSA, we do everything based on risk. 
So when we saw risk in gaps, we move around the personnel in a 
temporary fashion to address that gap.'' Do you know which model or 
models she referred to in her testimony? Were you involved in creating 
these ``surge'' models? If not, who was? Do you use ``surge'' models at 
the National Targeting Center or the National Vetting Center?
    Answer. Response was not received at the time of publication.
      Question From Chairwoman Kathleen M. Rice for Donald Conroy
    Question. Based on your testimony, I understand that you look at 
social media to supplement or augment any derogatory information on an 
individual. Is there a standardized way to incorporate social media 
searches for the entire population you are screening? If so, please 
provide the standards for the utilization of social media while 
screening visa waiver applicants. In addition, has CBP conducted and 
completed a cost-benefit analysis for this type of screening? If yes, 
please provide the committee with a copy of this analysis.
    Answer. Response was not received at the time of publication.
          Question From Chairman Max Rose for Monte B. Hawkins
    Question. On March 6, Secretary Nielsen testified before this 
committee, saying DHS has ``surge models throughout the Department, 
whether it is FEMA, whether it is TSA, we do everything based on risk. 
So when we saw risk in gaps, we move around the personnel in a 
temporary fashion to address that gap.'' Do you know which model or 
models she referred to in her testimony? Were you involved in creating 
these ``surge'' models? If not, who was? Do you use ``surge'' models at 
the National Targeting Center or the National Vetting Center?
    Answer. Response was not received at the time of publication.
     Question From Chairwoman Kathleen M. Rice for Monte B. Hawkins
    Question. Does the National Vetting Center utilize social media 
information in any way separate from CBP's screening?
    Answer. Response was not received at the time of publication.
     Question From Chairman Bennie G. Thompson for Monte B. Hawkins
    Question. Please provide the committee with an unclassified written 
report of all that the National Vetting Center has accomplished since 
its establishment in 2018.
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
